<html>
<title> - COUNTERING VIOLENT ISLAMIST EXTREMISM: THE URGENT THREAT OF FOREIGN FIGHTERS AND HOME-GROWN TERROR</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






  COUNTERING VIOLENT ISLAMIST EXTREMISM: THE URGENT THREAT OF FOREIGN 
                     FIGHTERS AND HOME-GROWN TERROR

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 11, 2015

                               __________

                            Serial No. 114-2

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-106 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                
      
      
      

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Steven M. Palazzo, Mississippi       Donald M. Payne, Jr., New Jersey
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Scott Perry, Pennsylvania            Bonnie Watson Coleman, New Jersey
Curt Clawson, Florida                Kathleen M. Rice, New York
John Katko, New York                 Norma J. Torres, California
Will Hurd, Texas
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     7

                               Witnesses

Mr. Francis X. Taylor, Under Secretary, Intelligence and 
  Analysis, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Nicholas J. Rasmussen, Director, National Counterterrorism 
  Center, Office of the Director of National Intelligence:
  Oral Statement.................................................    15
  Prepared Statement.............................................    18
Mr. Michael B. Steinbach, Assistant Director, Counterterrorism 
  Division, Federal Bureau of Investigations, U.S. Department of 
  Justice:
  Oral Statement.................................................    21
  Prepared Statement.............................................    24

 
  COUNTERING VIOLENT ISLAMIST EXTREMISM: THE URGENT THREAT OF FOREIGN 
                     FIGHTERS AND HOME-GROWN TERROR

                              ----------                              


                      Wednesday, February 11, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:15 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, Rogers, Duncan, 
Perry, Clawson, Katko, Hurd, Carter, Walker, Loudermilk, 
McSally, Ratcliffe, Thompson, Jackson Lee, Langevin, Higgins, 
Richmond, Keating, Payne, Vela, Watson Coleman, Rice, and 
Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to hear testimony 
on violent Islamist extremism and the threat of foreign 
fighters and home-grown terror. I now recognize myself for an 
opening statement.
    Today, at the first hearing of the House Committee on 
Homeland Security in the 114th Congress, I would like to take a 
moment of silence to remember all those who lost their lives at 
the hands of ISIS, especially Americans James Foley, Steven 
Sotloff, and most recently, Kayla Mueller.
    These victims are the reason why we are here today. We must 
keep these barbaric terrorists out of the homeland to protect 
the American people. This hearing will also assess the urgent 
and growing threat of terrorist recruiting and inspiring 
Americans. We need to accurately define the threat, and that is 
violent Islamist extremism, and recognize that it is spreading 
like wildfire around the globe.
    These fanatics want nothing less than destruction of our 
way of life, and now their ability to match words with deeds is 
growing at an astonishing rate. In recent years, their safe 
havens have proliferated and their ranks have swelled.
    In many ways, we are no longer talking about terrorist 
groups. We are talking about terrorist armies. ISIS now 
controls a territory the size of Belgium, governs millions of 
people, draws on billions of dollars in revenue and commands 
tens of thousands of foot soldiers.
    They are brutal. Their latest act of barbarism was on full 
display with a horrific murder of a Jordanian pilot. This 
evolving Islamic terrorist landscape has given rise to the dual 
threats of foreign fighters returning to the United States and 
home-grown terrorism. The recent terror attack in Paris and 
other attacks and plots in Belgium, Germany, the United 
Kingdom, Australia, Canada, and here in the United States are 
proof that the threat has surged and that the enemy is dead-set 
on attacking the West.
    This map behind me shows a wide-spread surge in ISIS-linked 
terrorist plots over the last year alone. As Mr. Rasmussen 
notes in his testimony, more than 20,000 fighters from over 90 
countries have made their way to the battlefield to join al-
Qaeda, ISIS, and other extremist groups, making this the 
largest convergence of Islamist terrorists in world history.
    That number continues to grow despite months of air 
strikes. Up to 5,000 of these fighters are Westerners, many of 
whom are able to travel into the United States without 
obtaining a visa. And more than 150 American citizens have 
attempted to or succeeded in getting to the battlefield, and we 
know that some of them have already returned to our shores. You 
can see this flow depicted in the graphic behind me.
    But extremists do not need to travel overseas in order to 
become a threat to our homeland. Through Hollywood-like 
propaganda videos and social media and through that means, 
Islamist terror groups are inciting their followers and 
potential recruits to wage war at home.
    Both ISIS, and Yemen-based al-Qaeda in the Arabian 
Peninsula have called for Westerners, including Americans, to 
wage individual jihad in their home countries, and it is 
working. ISIS social media also gives step-by-step instructions 
on how to get to the fight and how to return.
    Following the attacks in Paris last month, our European 
partners have been busy uncovering new terrorist cells and 
disrupting imminent plots. Also, just recently here at home, 
the FBI arrested an Ohio-based ISIS sympathizer who was 
intending to attack the United States Capitol with pipe bombs.
    I am worried about our ability to combat this threat 
abroad, but also here at home. I wrote to the President 
recently and raised concerns that we still have no lead agency 
in charge of countering domestic radicalization and no line 
item for it in the budgets of key departments and agencies.
    I am also concerned that the few programs we do have in 
place are far too small to confront a threat that has grown so 
quickly.
    Today, I hope to hear how the administration assesses the 
danger posed by foreign fighters, particularly Westerners, and 
the threat of home-grown terrorism here in the United States. 
More importantly, I hope we will hear about how the 
administration is responding and how it plans to ramp up its 
response to those challenges.
    This morning, I would like to welcome all of our witnesses, 
but especially Mr. Rasmussen with the National Counterterrorism 
Center, in his first appearance before Congress after being 
confirmed as director, and we look forward to his testimony.
    As part of our committee's focus on this critical National 
security issue, the Ranking Member and myself are establishing 
a task force on combating terrorist and foreign fighter travel. 
The 6-month task force will review U.S. Government efforts, 
focusing on DHS, to disrupt terrorist travel into our country 
and to combat the foreign fighter threat. It will ultimately 
provide recommendations to the committee on how we can improve 
U.S. security against these dangers.
    I must say I am very disappointed that the State Department 
chose not to send a witness here today. The threats we are 
discussing are serious, and the State Department plays a key 
role in combating them.
    I recently sent a letter to the White House expressing my 
concerns over the Department's desire to resettle tens of 
thousands of Syrian refugees here in the United States. I am 
worried that ISIS could exploit this effort in order to deploy 
operatives to America via a Federally-funded jihadi pipeline.
    Before closing, I would like to again reiterate what I said 
at our organizational meeting last month. Mr. Thompson, we look 
forward to working with you to accomplish our shared goal of 
protecting the homeland.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           February 11, 2015
    Today, at the first hearing of the House Committee on Homeland 
Security in the 114th Congress, I'd like to take a moment of silence to 
remember all those who lost their lives at the hands of ISIS, 
especially Americans James Foley, Steven Sotloff and, most recently, 
Kayla Mueller.
    The victims are the reason why we are here today. We must keep 
those barbaric terrorists out of the homeland to protect the American 
people. This hearing will also assess the urgent and growing threat of 
terrorists recruiting and inspiring Americans.
    We need to accurately define the threat--violent Islamist 
extremism--and recognize it is spreading like wildfire around the 
globe. These fanatics want nothing less than destruction of our way of 
life, and now their ability to match words with deeds is growing at an 
astonishing rate. In recent years, their safe havens have proliferated 
and their ranks have swelled.
    In many ways, we are no longer talking about terrorist groups. We 
are talking about terrorist armies. ISIS now controls a territory the 
size of Belgium, governs millions of people, draws on billions of 
dollars in revenue, and commands tens of thousands of foot soldiers. 
And they are brutal--their latest act of barbarism was on full display 
with the horrific murder of the Jordanian pilot.
    This evolving Islamist terror landscape has given rise to the 
``dual threats'' of foreign fighter returnees and home-grown terrorism. 
The recent terror attack in Paris, and other attacks and plots in 
Belgium, Germany, the United Kingdom, Australia, Canada, and here in 
the United States are proof that the threat has surged and that the 
enemy is dead-set on attacking the West.
    As Mr. Rasmussen notes in his testimony, more than 20,000 fighters 
from over 90 countries have made their way to the battlefield to join 
al-Qaeda, ISIS, and other extremist groups--making this the largest 
convergence of Islamist terrorists in world history. That number 
continues to grow despite months of air strikes. Up to 5,000 of these 
fighters are Westerners, many of whom are able to travel into the 
United States without obtaining a visa. More than 150 American citizens 
have attempted to or succeeded in getting to the battlefield--and we 
know some have already returned to our shores.
    But extremists do not need to travel overseas in order to become a 
threat to our homeland. Through Hollywood-like propaganda videos and 
social media, Islamist terror groups are inciting their followers and 
potential recruits to wage war at home. Both ISIS and Yemen-based al-
Qaeda in the Arabian Peninsula have called for Westerners--including 
Americans--to ``wage individual jihad'' in their home countries--and 
it's working. ISIS social media also gives step-by-step instructions on 
how to get to the fight and how to return.
    Following the attacks in Paris last month, our European partners 
have been busy uncovering new terrorist cells and disrupting imminent 
plots. Also, just recently here at home, the FBI arrested an Ohio-based 
ISIS sympathizer who was intending to attack the U.S. Capitol with pipe 
bombs.
    I am worried about our ability to combat this threat abroad, but 
also here at home. I wrote to the President recently and raised 
concerns that we still have no lead agency in charge of countering 
domestic radicalization and no line item for it in the budgets of key 
departments and agencies. I am also concerned that the few programs we 
do have in place are far too small to confront a threat that has grown 
so quickly.
    Today, I hope to hear how the administration assesses the danger 
posed by foreign fighters, particularly Westerners, and the threat of 
home-grown terrorism here in the United States. More importantly, I 
hope we will hear about how the administration is responding--and plans 
to ramp up its response--to these challenges.
    This morning I would like to welcome all of our witnesses but 
especially Mr. Rasmussen. It is his first appearance before Congress 
after being confirmed as the Director of the NCTC, and we look forward 
to his testimony.
    As part of our committee's focus on this critical National security 
issue, the Ranking Member and myself are establishing a Task Force on 
Combatting Terrorist and Foreign Fighter Travel. The 6-month task force 
will review U.S. Government efforts--focusing on DHS--to disrupt 
terrorist travel into our country and to combat the foreign fighter 
threat. It will ultimately provide recommendations to the committee on 
how we can improve U.S. security against these dangers.
    I am very disappointed that the State Department chose not to send 
a witness here today. The threats we are discussing are serious, and 
the State Department plays a key role in combating them. I recently 
sent a letter to the White House expressing my concerns over the 
Department's desire to resettle tens of thousands of Syrian refugees in 
the United States. I am worried ISIS could exploit this effort in order 
to deploy operatives to America via a Federally-funded jihadi pipeline.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. With that, the Chairman now recognizes the 
Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman, for your comments, 
as well as for holding today's hearing.
    I would like to also welcome Director Rasmussen for his 
first appearance before this committee as the director of the 
National Counterterrorism Center. As well, I would also thank 
the rest of the panel for testifying about the Federal 
Government's effort to identify and deter foreign fighters and 
the Government's efforts to counter violent extremism.
    I would like to express my condolences at the beginning to 
the family of the 26-year-old Kayla Mueller, an American aid 
worker who was taken hostage by the Islamic State of Iraq. U.S. 
officials have confirmed she was killed by the terrorist group. 
Mr. Chairman, Ms. Mueller's death and other recent terrorist 
attacks across the world over the past few months have 
magnified the nature of the evolving threat from the terrorist 
groups and state actors. The heinous actions by ISIL, including 
the beheading of a Japanese journalist and the terrorist 
group's burning of a Jordanian pilot further illustrates the 
abhorrent nature of this terrorist group.
    Last month, the Chairman of the Joint Chiefs of Staff 
indicated that the radical ideology of ISIL is causing other 
terrorist groups to rebrand themselves and emulate ISIL.
    Top U.S. officials have made public statements that foreign 
fighters linked to ISIL may pose a direct threat to this 
country. Moreover, those inspired by the ideology of ISIL, al-
Qaeda, and other groups are of concern.
    As we look to these threats, we cannot take a myopic view. 
Each attack from terrorist groups have reemphasized the global 
reach of terrorist activity. For instance, there was a 
crippling cyber attack in November on Sony Pictures 
Entertainment Network. In December, in Sydney, Australia, we 
witnessed a terrorist attack on a cafe, where at the end of a 
16-hour stand-off, two innocent people lay dead.
    Then in January in Paris, there was a series of execution-
style murders of 12 members Charlie Hebdo's creative team. Al-
Qaeda in the Arabian Peninsula has taken credit for this 
attack.
    This serves as a reminder that the terrorist threats we 
face are evolving quickly. This committee's responsibility is 
to hold hearings and receive Classified information that lets 
us know the nature of the threats and how the Federal 
Government is dealing with the threat.
    In spite of this, Mr. Chairman, the Republican majority 
continues to play political games with funding the Department 
of Homeland Security. Mr. Chairman, I, too, feel that it is 
meaningless to have a strategy if the ends are not paired with 
the means to achieve them. It is my hope that you will make the 
point to your colleagues and leadership who are holding the 
funding for a key agency and the Federal Government that 
Americans look to to detect, deter, and respond to a terrorist 
hostage situation.
    Unfortunately, the Department of Homeland Security is 
operating under the threat of a shutdown, and it is only funded 
by a continuing resolution for the next 17 days. It is 
important that my Republican colleagues act responsibly, stop 
playing politics, and pass a clean DHS funding bill. Without a 
fully-funded Department of Homeland Security, some of our key 
methods of identifying terrorists and preventing terrorist 
travel will be at risk.
    Are we really ready to stand before the American people, 
those who trust and value that we recognize their needs, and 
declare for the sake of partisanship we are going to make our 
Nation more vulnerable by not funding DHS?
    Mr. Chairman, I hope not. We have significant challenges 
before us. You have outlined in your testimony those 
challenges, but if we don't have a fully-funded Department, one 
that can't operate on continuing resolution, we put this 
country, its people, at risk. So whatever it takes for us to 
deal with this threat, first of all, we have a Department that 
has the resources to address the threat.
    So I look forward to the testimony of our witnesses. But I 
also look forward to an effort where we can get the Department 
of Homeland Security treated like every other department of 
Government, having a budget that carries us until the end of 
the fiscal year.
    With that, I yield back.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           February 11, 2015
    I would like to welcome Director Rasmussen to his first appearance 
before this committee as the director of the National Counterterrorism 
Center. I also thank the rest of the panel for testifying about the 
Federal Government's efforts to identify and deter foreign fighters and 
the Government's efforts to counter violent extremism. I would like to 
express my condolences to the family of 26-year-old Kayla Mueller, an 
American aid worker who was taken hostage by the Islamic State of Iraq 
and the Levant. U.S. officials have confirmed she was killed by the 
terrorist group. Kayla Mueller's death and other recent terrorist 
attacks across the world over the past few months have magnified the 
nature of the evolving threat from terrorist groups and state actors.
    The heinous actions by the Islamic State in Iraq and the Levant 
(ISIL), including the beheading of a Japanese journalist and the 
terrorist group's burning of a Jordanian pilot, further illustrate the 
abhorrent nature of this terrorist group. Last month, the Chairman of 
the Joint Chiefs of Staff indicated that the radical ideology of ISIL 
is causing other terrorist groups to rebrand themselves and emulate 
ISIL. Top U.S. officials have made public statements that foreign 
fighters linked to ISIL may pose a direct threat to this country.
    Moreover, those inspired by the ideology of ISIL, al-Qaeda, and 
other groups are of concern. As we look at these threats, we cannot 
take a myopic view. Each attack from terrorist groups have reemphasized 
the global reach of terrorist activity.
    For instance, there was the crippling cyber attack in November on 
Sony Pictures Entertainment's network. In December, in Sydney, 
Australia, we witnessed a terrorist attack on a cafe where, at the end 
of a 16-hour stand-off, two innocent people laid dead. Then, in 
January, in Paris, there was a series of execution-style murders of 12 
members of Charlie Hebdo's creative team. Al-Qaeda in the Arabian 
Peninsula has taken credit for this attack.
    This serves as a reminder that the terrorist threats we face are 
evolving quickly. This committee's responsibility is to hold hearings 
and receive Classified information that lets us know the nature of the 
threat and how the Federal Government is dealing with the threat.
    In spite of this, the Republican Majority continues to play 
political games with funding the Department of Homeland Security. Mr. 
Chairman, I, too, feel that it is meaningless to have a strategy if the 
ends are not paired with the means to achieve them. It is my hope that 
you will make that point to your colleagues and leadership who are 
holding the funding for the key agency of the Federal Government that 
Americans look to detect, deter, and respond to terrorism hostage. 
Unfortunately, the Department of Homeland Security is operating under 
the threat of a shut-down and is only funded by a continuing resolution 
for the next 17 days.
    It is important that my Republican colleagues act responsibly, stop 
playing politics, and pass a clean DHS funding bill. Without a fully-
funded Department of Homeland Security, some of our key methods of 
identifying terrorists and preventing terrorist travel will be at risk. 
Are we really ready to stand before the American people--those who 
trust and value that we recognize their needs--and declare for the sake 
of partisanship, we are going to make our Nation more vulnerable by not 
funding DHS?

    Chairman McCaul. I thank the Ranking Member. Other Members 
are reminded that statements may be submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                           February 11, 2015
    Chairman McCaul and Ranking Member Thompson thank you for holding 
this morning's hearing on ``Countering Violent Islamist Extremism: The 
Urgent Threat of Foreign Fighters and Home-Grown Terror.''
    I offer the family and friends of Kayla Mueller my condolences and 
thoughts and prayers during this difficult time.
    She is the latest United States citizen to have been killed while 
being held against their will by ISIS/ISIL.
    I welcome and thank today's witnesses, the Honorable Francis X. 
Taylor, under secretary for intelligence and analysis U.S. Department 
of Homeland Secretary; the Honorable Nicholas J. Rasmussen, director, 
National Counterterrorism Center, Office of the Director of National 
Intelligence; and Mr. Michael B. Steinbach, assistant director, 
Counterterrorism Division with the Federal Bureau of Investigation.
    The work of the Department of Homeland Security, the Office of the 
Director of National Intelligence, and the Federal Bureau of 
Investigation to protect our Nation and its people from radical 
terrorists and terrorism is critical to homeland security.
    The topic of today's hearing is relevant to the reality of a new 
global terrorism threats posed by the Islamic State of Iraq and the 
Levant (ISIL)/the Islamic State (IS)/the Islamic State of Iraq and 
Syria (ISIS).
    On February 14, 2014, the testimony of James Clapper, the director 
of intelligence, before the Senate Armed Services Committee estimated 
that ``somewhere between 75,000 to possibly 115,00 insurgents were 
organized into 1,500 groups comprised numbers of persons associated 
with the ISIS/ISIL terrorism network.''
    In 2014, the Bipartisan Policy Center reported that more than 
10,000 foreign fighters have gone to Syria where they have access to 
training, weapons, and hardened terrorist fighters.
    The threat is no longer isolated to the region that borders Syria, 
Iraq, and Turkey, but can be found in nations far from the area of 
conflict.
    In January Belgium police conducted pre-emptive raids against 
terrorist suspects who were said to have recently returned from 
fighting with terrorists in the war in Syria.
    Belgium police reported that the suspects opened fire on police 
using military-style weapons.
    The attraction by some in the United States to joining the ISIS/
ISIL is evident by the FBI arrest of U.S. citizens and residents on 
charges of providing material support to terrorist groups and using 
certain weapons in connection with the conflict in Syria.
    In 2014, a 20-year-old U.S. citizen and resident of California 
allegedly traveled to the Canadian border intending to travel to Syria 
to join ISIL. In March this young man was charged with attempting to 
provide material support to a foreign terrorist group after he agreed 
to ``connect'' an undercover FBI agent to ISIL.
    Many of the Members of the Homeland Security Committee are 
concerned about terrorist travel especially those holding United States 
or European passports because they can gain ease of access to our 
shores.
    I know that the Department of Homeland Security's job is to 
identify foreign fighters who may seek to enter the United States and 
prevent them from traveling to this country or ensuring another 
appropriate Government response.
    I have introduced H.R. 48, the ``No Fly for Foreign Fighters Act,'' 
which requires the director of the Terrorist Screening Center to review 
the Terrorist Screening Database and the terrorist watch list to 
determine if an individual boarding a U.S.-bound or domestic flight 
poses a terrorist threat or is suspected of being a member of a foreign 
terrorist organization.
    It is my believe that the Department of Homeland Security must be 
able to do its job and that Congress not providing full funding for the 
agency for fiscal year 2015 is a hindrance to the agency's mission and 
our obligations to do all that we can be protect the American public.
    Protection of Federal buildings, as well as the workforce and 
citizens who access them, are also hampered by a failure to provide 
full-year funding to DHS.
    In the wake of high-profile attacks in Paris, Secretary Johnson 
directed the Federal Protective Services to step up security 
operations. Without full year funding, those efforts could be hampered.
    Because of budget uncertainty the Department of Homeland Security 
cannot complete a much-needed $90 million investment in new and 
upgraded remote and mobile video surveillance systems in the Rio Grande 
Valley.
    These systems are necessary to provide the Border Patrol with 
increased situational awareness, early detection of border incursions, 
enhanced identification and classification of threats, and the tracking 
of suspect materials.
    Additionally, the Border Patrol needs Mobile Video Surveillance 
Systems for day and night surveillance. Moreover, the Department cannot 
carry out the additional 16,526 flight hours along the Southwest Border 
to detect illegal border crossings.
    For this reason, I ask my colleagues on the committee to join me in 
asking the leadership of the House to pass a budget to fully fund the 
Department of Homeland Security for fiscal year 2015--not doing so may 
make the Nation more vulnerable at a time we should be at our highest 
level of preparedness.
    I thank today's witnesses and look forward to their testimony.
    Thank you.

    Chairman McCaul. I am pleased to have three distinguished 
witnesses before us today to discuss this important topic. 
First, the honorable Francis Taylor became the under secretary 
for intelligence and analysis at the U.S. Department of 
Homeland Security in April 2014. He has held a variety of 
senior-level positions over his 35-year career in Government 
service. Most recently, Under Secretary Taylor served as the 
assistant secretary of state for diplomatic security and 
director of foreign missions. Thank you, sir, for being here 
today.
    Next we have the honorable Nicholas Rasmussen, sworn in as 
director of the National Counterterrorism Center in December 
2014. He previously served as NCTC's deputy director since June 
2012. Prior to returning to NCTC, he served with the National 
Security Council staff as special assistant to the President 
and senior director for counterterrorism. Thank you, sir.
    Last but not least, Michael Steinbach, appointed as the 
assistant director of the FBI's Counterterrorism Division by 
Director Comey in July 2014. He joined the FBI in 1995, held a 
variety of positions at FBI headquarters in the field and 
overseas during his 10-year career with the bureau, most 
recently served as deputy assistant director of the 
Counterterrorism Division.
    The witnesses' full statements will appear in the record. 
The Chairman now recognizes Under Secretary Taylor for his 
opening statement.

 STATEMENT OF FRANCIS X. TAYLOR, UNDER SECRETARY, INTELLIGENCE 
       AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Taylor. Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee, I am pleased to be here 
today with my colleagues from the FBI and NCTC to discuss the 
foreign fighter threat and our current efforts to disrupt 
terrorist travel.
    I would be remiss if I did not highlight one of the biggest 
threats to the security of our homeland, the lack of funding 
for the Department of Homeland Security.
    Given the myriad of threats facing the homeland, it is 
imperative that Congress pass a full-year DHS appropriations 
bill for 2015. As long as the Department operates under a CR, 
there are a whole series of activities vital to homeland 
security and public safety that the Department just cannot do. 
The men and women of DHS need a partner in Congress to fund 
their efforts. Time is running out, and I urge Congress to pass 
a full-year appropriations bill for this Department as soon as 
possible.
    The foreign fighter threat continues to be a security 
threat to the United States and our allies. Events in 
Australia, Canada, and most recently in France and Belgium 
underscore that the foreign fighter threat is no longer a 
problem restricted to foreign conflict zones, such as northern 
Syria and western Iraq.
    At present, we are unaware of any specific, credible, or 
imminent threat to the homeland. However, recent events have 
demonstrated the need for increased vigilance, both at home and 
abroad. That said, the foreign fighter threat is constantly 
evolving as well as developing new tactics in recruitment that 
we have not previously seen before.
    The Islamic State of Iraq and Levant, commonly referred to 
as ISIL, exhibits a very sophisticated propaganda capability. 
ISIL's use of multi-media content has enhanced the appeal of 
its terrorist organization. This propaganda encourages 
supporters to carry out attacks, and such attacks could be 
conducted without specific direction from ISIL with little or 
no warning.
    To address this very threat, counter violence extremism in 
the homeland, and to guard against the domestic lone offender, 
Secretary Johnson has directed the DHS to build on our 
partnerships with our State, local, and local law enforcement 
partners in ways that enhance its community relationships and 
builds resilience to violent extremism.
    The Secretary recently appointed a CVE coordinator to 
oversee the various CVE programs and efforts across our 
Department. Additionally, since September 2014, Secretary 
Johnson has personally participated in direct engagement 
efforts with critical stakeholders in Chicago, Columbus, Ohio, 
Minneapolis, Los Angeles, and Boston to discuss how DHS can 
best support local efforts to counter violent extremism and 
address the foreign terrorist fighters.
    DHS CVE efforts are designed to share information with 
communities and local officials, to raise vigilance on 
behavioral indicators that may link to radicalization to 
violence. The DHS program also focuses on empowering 
communities and local law enforcement to develop intervention 
and prevention efforts at the local level.
    The White House plans to host a CVE summit on February 18, 
2015. It will focus on both domestic and international CVE 
efforts. Prior to the summit, DHS will host an event for 
domestic stakeholders on February 17 at the White House, while 
a second affiliated event, specifically for international 
partners, will be hosted by the Department of State on February 
19.
    Let me now turn to the specific efforts DHS is undertaking 
to identify, address, and minimize the foreign fighter threat 
to the United States and to our allies. Beginning in July 2014, 
DHS required enhanced screening at selected overseas airports 
with direct flights to the United States. Weeks later, DHS 
added additional airports to this list with the United Kingdom 
and other countries following similar enhancements to their 
required aviation security operations.
    TSA, as directed by Secretary Johnson is also conducting an 
immediate short-term review to determine if additional security 
screening measures are necessary at both domestic, and 
overseas, last-point-of-departure airports. DHS is also 
exploring the possibility of expanding PRE--pre-clearance 
operation at foreign airports with flights to the United 
States.
    Currently, CBP has pre-clearance operations at 15 airports 
in six countries, and, where appropriate, CBP intends to enter 
into negotiations to expand air pre-clearance operations at new 
locations. The Department continues to work closely with our 
European partners through the U.S.-E.U. Passenger Name Records 
Agreement to transfer passenger name records information to DHS 
by airlines that are subject to the E.U. data protection laws.
    In addition, DHS uses close partnerships with countries in 
the Visa Waiver program and the five-country ministerial to 
improve respective abilities to identify illicit travel. Just 
this past November, the Secretary increased the data fields 
that are collected from Visa Waiver countries where visas are 
not required for entry into the United States, and to provide 
additional passport data, contact information, and other 
potential names or aliases in the travel application submitted 
under the electronic system for travel authorization before 
they can travel to the United States.
    DHS is increasing efforts to track those who enter and 
leave Syria and may later seek to travel to the United States 
without a State Department-issued visa. The terrorist threat is 
dynamic, and those who operate individually as a part of 
terrorist organizations will continue to challenge our security 
measures and our safety.
    Mr. Chairman, I would like to end my statement there, and I 
look forward to the questions from the committee.
    [The prepared statement of Mr. Taylor follows:]
                Prepared Statement of Francis X. Taylor
                           February 11, 2015
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to appear before you 
today--along with my colleagues from the Federal Bureau of 
Investigation (FBI), the National Counterterrorism Center (NCTC), and 
the Department of State (DOS)--to discuss the foreign fighter threat 
and current efforts to disrupt terrorist travel.
    For some time, the U.S. Government, including the Department of 
Homeland Security (DHS), has been concerned that terrorist groups 
operating in permissive environments present a significant security 
threat to the United States and to our allies. Events in Australia, 
Canada, and, most recently, in France and Belgium underscore that the 
foreign fighter threat is no longer a problem restricted to foreign 
conflict zones such as those in northern Syria or western Iraq. The 
Islamic State of Iraq and the Levant (ISIL) and other like-minded 
terrorist organizations have been effective in recruiting fighters from 
Western countries, as well as recruiting individuals for violent action 
at home for those who cannot travel to conflict zones. The threat is 
real, it continues to evolve, and it is a present danger to everyone 
across the globe. It includes people radicalized to violence overseas, 
or potentially here in the United States.
    At present, we are unaware of any specific, credible, imminent 
threat to the homeland; however, recent events have demonstrated the 
need for increased vigilance both at home and abroad. We recognize that 
the threat environment is ever-evolving and becoming increasingly 
complex and decentralized. For that reason, DHS is continuing to 
encourage an informed and aware public, as promoted by the ``See 
something, say something'' campaign, as well as our more specific 
bulletins. We must recognize protecting the homeland is a shared 
responsibility.
    In my testimony today, I will discuss the foreign fighter threat 
and highlight specific efforts DHS is undertaking to identify, address, 
and minimize the foreign fighter threat to the United States and to our 
allies.
                         foreign fighter threat
    While much of today's hearing will focus on terrorist threats from 
Syria and Iraq, it is important to emphasize that the terrorist threat 
is fluid and not constrained to one group, race, ethnicity, national 
origin, religion, or geographic location. Many terrorist groups 
continue to pose a risk to our security and safety.
    Core al-Qaeda (AQ), al-Qaeda in the Arabian Peninsula (AQAP), and 
AQ's affiliates and adherents remain a major concern for DHS. Despite 
the deaths of many of AQ's senior leaders, the group maintains the 
intent, and in some cases, the capability to facilitate and conduct 
attacks against U.S. citizens and facilities. The group has also 
demonstrated that it is capable of adjusting its tactics, techniques, 
and procedures for targeting the West.
    Events in recent weeks have also made it clear why DHS and others 
in the counterterrorism and law enforcement communities are concerned 
about the threats posed by terrorists operating out of Syria and Iraq. 
In addition to hard-core al-Qaeda loyalists, a number of those involved 
in terrorist operations within Syria and Iraq are affiliated with ISIL. 
ISIL operates as if it were a military organization and aspires to 
overthrow governments in the region and eventually beyond. Their 
experience and successes on the battlefields in Syria and Iraq have 
armed this group with advanced capabilities that most terrorist groups 
do not have.
    ISIL has also publicly threatened ``direct confrontation'' with the 
United States, which is consistent with the group's media releases 
during the past several years that have alluded to attacking the United 
States. Through their sophisticated messaging capability, which 
includes the dissemination of high-quality media content on multiple 
on-line platforms, ISIL has been able to quickly reach a global 
audience and encourage acts of violence, as well as inspire U.S. 
citizens to travel to Syria to join in the conflict.
    The on-going conflict in Syria has emerged as a draw for more than 
19,000 foreign fighters. We are aware of a number of U.S. Persons who 
have traveled or attempted to travel to Syria. More than 150 U.S. 
Persons and at least 3,400 Westerners have traveled or attempted to 
travel to Syria to participate in the conflict. We have also noted that 
veteran al-Qaeda fighters have travelled from Pakistan to Syria to take 
advantage of the permissive operating environment and easy access to 
foreign fighters. We remain concerned about the threat of foreign 
fighters from the United States or elsewhere who may go to Syria and 
Iraq, become more radicalized to violence, and return to the United 
States or their home country and conduct attacks on their own or in 
concert with others. Furthermore, we also are concerned that U.S. 
Persons who join violent extremist groups in Syria could gain combat 
skills, violent extremist connections, and possibly become persuaded to 
conduct organized or ``lone-wolf'' style attacks that target U.S. and 
Western interests. We also have become increasingly aware of the 
possibility that Syria could emerge as a base of operations for al-
Qaeda's international agenda, which could include attacks against the 
homeland.
               dhs response to the foreign fighter threat
Aviation Security
    Terrorist organizations like AQAP continue to pose a serious threat 
to international civil aviation. As we have seen in AQAP's three 
attempted aviation attacks against the homeland--the airliner plot of 
December 2009, an attempted attack against U.S.-bound cargo planes in 
October 2010, and an airliner plot in May 2012--terrorist groups have 
shown a significant and growing sophistication in terms of bomb design 
and construction, operational skill, and innovation. In the past 3 
years terrorists have become increasingly interested in circumventing 
airport security screening through the use of improvised explosive 
devices (IEDs) concealed in cargo, commercial electronics, physical 
areas of one's body, in shoes or clothing, and in cosmetics and 
liquids.
    To address the terrorist threat to aviation, DHS continues to 
evaluate, modify, and enhance aviation security measures. For example, 
beginning in July 2014, DHS required enhanced screening at select 
overseas airports with direct flights to the United States. Weeks 
later, DHS added additional airports to the list, with the United 
Kingdom and other countries following with similar enhancements to 
their required aviation security operations. Following recent world 
events, in January 2015, the Transportation Security Administration 
(TSA) took steps to enhance the number of random searches of passengers 
and carry-on luggage boarding aircraft at U.S. airports. TSA, as 
directed by Secretary Johnson, is also conducting an immediate, short-
term review to determine if additional security measures are necessary 
at both domestic and overseas last-point-of-departure airports. DHS 
will continue to evaluate the implementation of aviation security 
measures with air carriers and foreign airports to determine if more is 
necessary, and will make the appropriate aviation security adjustments 
without unduly burdening the traveling public.
    In the long term, DHS is exploring the possibility of expanding 
pre-clearance operations at foreign airports with flights to the United 
States. This initiative provides for customs, immigration, and 
agriculture inspections of international air passengers and their goods 
by U.S. Customs and Border Protection (CBP) officials before the 
individual boards the plane for travel to the United States. Currently, 
CBP has pre-clearance operations at 15 airports and in 6 countries and, 
if appropriate, intends to enter into negotiations in order to expand 
air pre-clearance operations to new locations.
Information Sharing
    Information sharing with our domestic and foreign partners is vital 
in identifying developing threats both here and abroad. DHS is 
committed to continuing our efforts, along with our colleagues in the 
intelligence community, to partner with European governments and other 
key counterterrorism allies to share information about terrorist 
threats.
    Since its inception, DHS has sought to broaden and deepen 
international liaison efforts to improve its ability to share 
information with key foreign allies. DHS has worked closely with the 
European Union through the U.S.-E.U. Passenger Name Records Agreement 
to facilitate the transfer of Passenger Name Records information to DHS 
by airlines that are subject to E.U. data protection laws. This 
agreement provides the highest standard of security and privacy 
protection. In addition, DHS has used its close partnerships with the 
countries in the Visa Waiver program and the Five Country Conference to 
improve our respective abilities to identify illicit travel. The 
Preventing and Combating Serious Crime Agreement that DHS and 40 
foreign partners have signed provides each signatory with reciprocal 
access to fingerprint repositories for the purposes of combating crime 
and terrorism. With the Five Country Conference, which includes 
Australia, Canada, New Zealand, and the United Kingdom, we have also 
concluded immigration information-sharing agreements that reduce the 
likelihood that a person applying for asylum or a visa in any of the 
five countries who has an illicit past could hide that history. DHS 
also engages with foreign partners to share analytic and targeting 
methodology, chiefly by conducting analytic exchanges, to enhance the 
ability of DHS and foreign allies to identify individuals and travel 
routes, and prevent travel to foreign conflict zones.
    DHS is working with our interagency partners to inform our State, 
local, Tribal, and territorial (SLTT) partners of recent events and 
threats. Following the Paris attacks, the Office of Intelligence and 
Analysis (I&A) prepared two Intelligence Notes and worked with the FBI 
to prepare and issue Joint Information Bulletins (JIBs); DHS shared 
both items Nationally with fusion centers.
    I&A continues to provide our State and local law enforcement 
partners with information about observable behavioral indicators of 
U.S. Persons planning or attempting travel to Syria. I&A has produced 
tailored assessments on the motivations of U.S. travelers, their travel 
patterns, the role social media is playing in radicalization to 
violence, and the ways in which U.S. Persons are providing material 
support to Syria-based violent extremist groups. Additionally, I&A has 
partnered with the FBI to produce JIBs and other products for State and 
local law enforcement on the trends and observable behaviors in 
individuals seeking to travel to Syria.
Tracking Foreign Fighters
    DHS is increasing efforts to track those who enter and leave Syria 
and may later seek to travel to the United States without a State 
Department-issued visa under the Visa Waiver program (VWP). Working 
with the intelligence community, DHS is aware that a number of foreign 
fighters in Syria have come from various VWP countries.
    In response, this fall, DHS strengthened the security of the VWP 
through enhancements to the Electronic System for Travel Authorization 
(ESTA). Those changes went into effect on November 3, 2014. ESTA adds a 
significant layer of security to the VWP by enabling CBP to conduct 
security vetting of prospective VWP travelers to determine if they pose 
a law enforcement or security risk before they board aircraft destined 
for the United States. DHS determined that additional data will improve 
the Department's ability to screen prospective VWP travelers and more 
accurately and effectively identify those who pose a security risk to 
the United States. These improvements provide an additional layer of 
enduring security for the VWP and facilitate visa-free travel to the 
United States.
    Because we view advance passenger screening as a critical element 
to an effective National counterterrorism capability, we have explained 
to many partner nations how they can compare airline manifests and 
reservation data against terrorist watch lists and other intelligence 
about terrorist travel. This is an area where the United States has 
developed a capability significantly more advanced than most other 
nations, both in identifying illicit travel and in protecting the 
privacy and civil liberties of all travelers, and we have worked to 
share this know-how in order to prevent terrorists from traveling the 
globe in anonymity. Developing this capability is also consistent with 
the new obligations introduced through U.N. Security Council Resolution 
2178, introduced last year by President Obama.
    DHS is also working with partner nations in Europe, the Middle 
East, and North Africa to increase our information sharing to track 
Syrian foreign fighters. These efforts allow the United States greater 
visibility on potential threats to the homeland, while similarly 
enhancing our partners' ability to track and prevent terrorist travel. 
The importance of this issue was highlighted by the United Nations 
Security Council's adoption of Resolution 2178 in September 2014, which 
provided new momentum for European and other governments to use air 
passenger screening technology and enhance information sharing through 
multi-lateral and bi-lateral channels.
Countering Violent Extremism
    Home-grown violent extremists (HVEs) represent a persistent and 
often unpredictable threat based on their close familiarity with the 
United States and their ability to act with little or no warning as 
lone offenders or in small decentralized cells. Over the past few years 
we have seen self-mobilizing, independently operating HVEs plot to bomb 
high-profile targets, such as the Federal Reserve Bank in New York, the 
U.S. Capitol, and commercial establishments in downtown Chicago, Tampa, 
and Oakland. All these plots were disrupted.
    To address the need to counter violent extremism (CVE) in the 
homeland and to guard against the domestic ``lone wolf''--someone who 
did not train at a terrorist camp or join the ranks of a terrorist 
organization overseas, but is inspired here at home by a group's social 
media, literature, or violent extremist ideology--Secretary Johnson has 
directed DHS to build on our partnerships with State and local law 
enforcement in a way that enhances community relationships and builds 
resilience to violent extremist recruitment. DHS now has a senior 
executive whose sole responsibility is coordinating and improving the 
Department's CVE efforts.
    DHS's approach emphasizes the strength of local communities and the 
premise that well-informed and well-equipped families, communities, and 
front-line personnel represent the best defense against violent 
extremism. Over the past 8 months, DHS has participated in a National 
Security Council (NSC)-coordinated interagency effort to work with 
Boston, Los Angeles, and Minneapolis/St. Paul to facilitate and support 
the development of locally-based, and -driven, violent extremism 
prevention and intervention pilot frameworks. Additionally, since 
September 2014, Secretary Johnson has personally participated in direct 
engagement efforts with critical stakeholders in Chicago, Columbus, 
Minneapolis, Los Angeles, and most recently, Boston, to hear how DHS 
can best support local efforts to counter violent extremism and address 
foreign terrorist fighters.
    DHS CVE efforts, in partnership with NCTC, also include the 
development of the Community Awareness Briefing (CAB), which is 
designed to share Unclassified information with stakeholders regarding 
the threat of violent extremism, as well as help communities and law 
enforcement develop the necessary understanding of al-Qaeda, al-
Shabaab, ISIL, and related affiliates' recruitment tactics as well as 
explore ways to address these threats at the local level. The CAB draws 
a parallel between the similar recruitment targets of all types of 
violent extremism. For example, the CAB uses the case study on the 
attack at a Sikh temple in Oak Creek, WI to illustrate potential for 
violence from all types of violent extremists, including but not 
limited to violent white supremacists, violent eco-terrorists, violent 
Neo-Nazis, criminal gangs (such as MS-13), and international terrorist 
groups. Due to the increased number of Western-based fighters traveling 
to foreign war conflicts, such as Syria and Somalia, the CAB now 
includes information relating to the foreign terrorist fighter 
recruitment narrative by al-Shabaab and ISIL.
    Beyond our borders, DHS collaborates with partner countries (such 
as the United Kingdom, Belgium, the Netherlands, Germany, Canada, 
Spain, and France) to develop best practices in community engagement 
endeavors that effectively counter violent extremism. Following the 
Paris attacks, DHS worked with some of these countries and the 
Department of State to link members of civil society and community 
stakeholders in respective countries so that they could coordinate and 
build grass-roots responses to the attacks in Paris.
    DHS is also working closely with the NSC staff, the Department of 
State, the Department of Justice including the FBI, and NCTC to plan 
the February 18-19, 2015, CVE Summit which will bring together key 
stakeholders from National and local governments around the world as 
well as the private sector, civil society, and community leaders to 
develop an action agenda address violent extremism in all its forms. 
Furthermore, DHS is working with the Department of State on the Global 
Counterterrorism Forum Workshop, which will be held on February 23 and 
24 in Washington, DC and will build on the CVE Summit. This workshop 
will focus on ways in which communities and governments can develop 
specific programs and efforts to address the issue of foreign terrorist 
fighters. France, Canada, Australia, and others will address the recent 
attacks they have faced and solutions they are developing to deal with 
this threat.
                               conclusion
    The terrorist threat is dynamic, as those who operate individually 
or as part of a terrorist organization will continue to challenge our 
security measures and our safety. DHS will continue to work with our 
international counterparts and our colleagues within the FBI, NCTC, 
Department of State, and the intelligence community, to identify 
potential threats to our security, both at home and abroad.
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to appear before you 
today. I look forward to answering your questions.

    Chairman McCaul. I thank the Secretary. Excuse me. The 
Chairman now recognizes Director Rasmussen for his opening 
statement.

    STATEMENT OF NICHOLAS J. RASMUSSEN, DIRECTOR, NATIONAL 
  COUNTERTERRORISM CENTER, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Rasmussen. Thank you, Chairman McCaul, Ranking Member 
Thompson and Members of the committee. I really do appreciate 
the opportunity to be here today to discuss the threat posed by 
foreign fighters and home-grown terror and our efforts as a 
Government to counter it.
    As Frank Taylor said, I am also pleased to join my 
colleagues and close partners from Homeland Security and the 
Federal Bureau of Investigation. We work closely and 
cooperatively every day as a part of a true community of 
counterterrorism professionals, and I am really grateful for 
that partnership that we share.
    This morning, I will briefly describe the threat we face 
from foreign fighters, highlight the role that extremist use of 
social media has played in that process, and conclude with 
efforts NCTC and our partners across the Federal Government are 
taking to counter that threat. I will begin with the foreign 
fighter picture.
    As you know, one of the most pressing concerns for the 
intelligence community is the on-going flow of foreign fighters 
to Syria, and importantly, the threat they could pose upon 
return to their home country of home origin. The battlefields 
in Iraq and Syria clearly provide foreign fighters with combat 
experience, with training in weapons and explosives, and with 
access to terror networks that may be ultimately planning 
targets--attacks which target the West.
    The rate of foreign fighter travel that we have seen in 
recent years is unprecedented. It exceeds the rate of travel 
and travelers who went to Afghanistan, Pakistan, Iraq, Yemen, 
or Somalia, other prominent conflict zones, but it exceeds the 
rate of travel to those conflict zones that we have seen at any 
point in the last 20 years.
    The United States and our allies are increasingly concerned 
with the more than 20,000 foreign fighters we assess have 
traveled to Syria from over 90 different countries of origin. 
We assess that at least 3,400 of these fighters are from 
Western countries, and that number includes also over 150 U.S. 
persons who have either traveled to the conflict zone, or 
attempted to do so. That is something we can speak about in 
more detail later in the session.
    I want to be cautious here about that because it is very 
difficult to be precise with these numbers, because they come 
from a wide variety of sources that vary in quality. I would 
rather focus on the trend lines, which are clear, and which are 
concerning.
    In addition to the foreign fighters who have already 
traveled, it is clear that the number of those seeking to go to 
Iraq and Syria is going up. Furthermore, the majority of those 
who are getting there, getting to the conflict zone right now, 
are fighting, or looking to fight for ISIL on the battlefield 
in Syria and Iraq.
    It is also a complicating factor that the individuals drawn 
to fight in foreign conflict zones do not fit any one 
stereotype or profile. They come from various backgrounds, 
which highlights the need for comprehensive messaging 
strategies and early engagement with a variety of communities 
in order to dissuade vulnerable individuals from trying to 
travel to conflict zones. The volume and diversity of recruits 
flowing to and from the conflict makes disruption particularly 
challenging.
    There is no single pipeline for foreign fighter travel into 
and out of Syria. Violent extremists take different routes, 
including land, air, and sea. Most routes do involve transit 
through Turkey because of its geographic proximity to the 
Syrian border areas where most of these groups operate.
    Now this sense of shared threat has prompted even closer 
cooperation across U.S. Federal agencies, and importantly, with 
our international partners, particularly in Europe. This is 
resulting in the development of stricter counterterrorism laws 
overseas, increased efforts at border security among our 
European partners, and importantly, more willingness to share 
threat information among partner nations.
    While these good efforts are under way and are making 
progress, significant work remains, particularly in ensuring 
that our foreign partners are able and willing to identify and 
stop foreign fighters when they transit their borders, both to 
prevent those fighters from entering, and then to stop fighters 
from leaving their home countries to travel abroad.
    Now, I will turn quickly to the use of social media by 
extremists, and especially by ISIL, and the way in which this 
group uses social media to attract a diverse set of aspiring 
foreign fighters.
    Now, the Chairman and the Ranking Member both mentioned in 
their opening remarks the brutal behavior that we have seen of 
ISIL in recent weeks. The world witnessed the brutal burning of 
a Jordanian pilot held hostage by the group, and we have seen 
the cruel beheadings of U.S. and Japanese hostages.
    ISIL's media capabilities are robust and effective. 
Moreover, their ability to generate timely propaganda continues 
to grow. I would argue that ISIL has proven far more adept than 
core al-Qaeda ever was, or more adept than any of--core--of al-
Qaeda's affiliate groups, more adept at using these new social 
media tools to reach a broader audience.
    Just since January 1 of this year, more than 250 official 
ISIL products have been published on-line, and the group has 
shown the capacity to use these products to speak to a full 
spectrum of potential audiences. Local Sunni Arab populations 
inside Iraq and Syria, who they are trying to co-opt and 
exercise dominion over, individuals in coalition countries, and 
even populations around the world, including English-speaking 
audiences here and across the globe.
    As you would expect, ISIL uses the most popular of social 
media platforms to disseminate this messaging. YouTube, 
Facebook, Twitter. They know how to ensure that once their 
media releases are posted, that they reach far and wide almost 
instantaneously with reposting, and regeneration of follow-on 
links and translations into an ever-growing number of 
additional languages.
    Now, in terms of content, we have all seen that it includes 
these horrible, horrific images in which hostages have been 
murdered or ISIL's adversaries on the battlefield have been 
executed in summary fashion. But we have also seen social media 
images of a bucolic family-friendly welcoming light under 
ISIL's rule in their self-declared caliphate as ISIL tries to 
paint a picture to entice disenfranchised individuals seeking 
ideological, religious, or personal fulfillment, and not just a 
battlefield or a martyrdom experience.
    ISIL also generates releases that cater to a younger 
population very familiar with popular culture. These releases 
often reference Western branding, including popular video 
games, in an attempt to appeal to thrill seekers and youth 
looking for fulfillment.
    Now, the threat we face is not just from foreign fighters 
or terrorist groups including ISIL and al-Qaeda. Individuals 
inspired by these and other groups, or simply by violent, 
extremist propaganda can be motivated to action, and, as Frank 
said, that can come with little or no warning.
    Many of these so-called home-grown violent extremists are 
lone actors who can potentially operate undetected and who can 
plan and execute a simple attack without providing us warning. 
As a community, we closely monitor violent extremist activity, 
including when that activity appears and occurs in the United 
States, and we are looking for signs that last year's attacks 
in Canada and elsewhere may embolden other HBEs to conduct 
additional attacks.
    We believe ISIL's rhetoric may have played a role in these 
attacks, particularly in target selection in terms of targeting 
Government officials or military personnel. We are working with 
our partners across multiple disciplines in the community to 
increase our knowledge of foreign fighters and to counter 
extremism.
    NCTC has taken a broad center-wide effort to track foreign 
fighters traveling to Syria. We work in the first instance to 
resolve the specific identities of these potential fighters to 
uncover any potential derogatory information that we have in 
intelligence community holdings.
    We are also working closely with foreign partners to combat 
threats emanating from Syria. We are looking hard to develop 
investigative leads for our partner agencies to pursue, 
including identifying foreign fighters entering Syria, who may 
have potential access or connections to individuals in the 
homeland so that they can be watch-listed.
    The growing number of individuals going abroad as foreign 
fighters only emphasizes the importance of prevention. Any hope 
of enduring security or defeating organizations like ISIL rests 
in our ability to diminish their appeal and to dissuade 
individuals from joining them in the first place. To this end, 
we continue to refine and expand the preventive side of 
terrorism and counterterrorism.
    We have seen a steady proliferation of more pro-active and 
more engaged community awareness efforts across the United 
States with the goal of giving communities information and 
tools they need to identify extremism in their midst, and to do 
something about it before it manifests in violence.
    My organization, NCTC, in direct and daily collaboration 
with DHS, the Justice Department, and FBI, has led the creation 
of CVE tools to build community resilience across the country. 
In working closely with these partners, we are doing this work 
all across the country, and I would like to point to just one 
quick example.
    You will recall the case last year in which three young 
teenage girls allegedly attempted to travel from Denver to 
Syria by way of Frankfurt, Germany, where their travel was 
disrupted by law enforcement. Now, in the aftermath of that 
incident, we, working together with DHS--DHS, FBI, and the 
Department of Justice--sent our officers on multiple occasions 
to meet and talk to the greater Denver community to raise 
awareness among community and law enforcement partners about 
the terrorist recruitment threat.
    We developed a briefing, working with our partners, that is 
now tailored to address the specific effort to identify and 
recruit foreign fighters for Syria and Iraq. We have received a 
very strong demand signal for more such outreach from 
communities like Denver, and we continue to try to expand our 
toolkit of CVE-related tools.
    With our DHS colleagues, we have created and we regularly 
deliver a community resilience exercise program, a table-top 
exercise that brings together law enforcement with community 
leaders to run through a hypothetical scenario and talk about 
response.
    We realize we can't institutionalize a prevention approach 
without scaling up these efforts, and that goes to something 
you said in your opening statement, Chairman McCaul. So we are 
working as a community to try to create more programs to train 
individuals on CVE tools to ensure that communities across the 
country are able to lead CVE approaches locally in their own 
communities. This approach syncs up nicely with the efforts of 
the White House, NCTC, DHS, DOJ, and FBI to facilitate the 
local development and implementation of intervention frameworks 
in cities all across the country.
    I will stop there, Mr. Chairman----
    Chairman McCaul. Thank you.
    Mr. Rasmussen [continuing]. Mr. Ranking Member. Thank you.
    [The prepared statement of Mr. Rasmussen follows:]
              Prepared Statement of Nicholas J. Rasmussen
                           February 11, 2015
    Thank you Chairman McCaul, Ranking Member Thompson, and Members of 
the committee. I appreciate this opportunity to be here today to 
discuss the threat posed by foreign fighters and home-grown terror, and 
our efforts to counter it. I'm pleased to join my colleagues and close 
partners from the Department of Homeland Security and Federal Bureau of 
Investigation.
                            foreign fighters
    One of the most pressing concerns for the intelligence community is 
the on-going flow of foreign fighters to Syria and the threat they 
could pose upon return to their home countries. The battlefields in 
Iraq and Syria provide foreign fighters with combat experience, weapons 
and explosives training, and access to terrorist networks that may be 
planning attacks which target the West.
    This shared threat has prompted even closer cooperation across U.S. 
Federal agencies and with our international partners, particularly in 
Europe. We are seeing increased international focus on this problem 
which is resulting in stricter counterterrorism laws overseas, 
increased border security efforts, and more willingness to share threat 
information among partner nations.
    The United States and our allies are increasingly concerned with 
the more than 20,000 foreign fighters who have traveled to Syria from 
over 90 different countries. We assess at least 3,400 of these fighters 
are from Western countries including over 150 U.S. persons who have 
either traveled to the conflict zone, or attempted to do so. It's very 
difficult to be precise with these numbers because they come from a 
variety of sources that vary in quality. But the trend lines are clear 
and concerning. The rate of foreign fighter travel to Syria is 
unprecedented. It exceeds the rate of travelers who went to Afghanistan 
and Pakistan, Iraq, Yemen, or Somalia at any point in the last 20 
years.
    In addition to the foreign fighters who have already traveled, the 
number of those seeking to go to Syria and Iraq are going up. 
Furthermore, the majority of those getting there right now are fighting 
for ISIL on the battlefield in Syria and Iraq.
    Individuals drawn to fight in foreign conflict zones do not fit any 
one stereotype. Recruits come from various backgrounds, highlighting 
the need for comprehensive messaging and early engagement with a 
variety of communities to dissuade vulnerable individuals from 
traveling. Extremist use of social media, especially by ISIL, is 
attracting a diverse set of aspiring foreign fighters and serving as a 
platform for relaying travel advice, including facilitation 
information, meeting locations, and even regional hotel accommodations.
                       isil's use of social media
    Last week, the world witnessed the brutal burning of Jordanian 
pilot Lieutenant Muath al-Kaseasbeh. As that propaganda video 
demonstrated, ISIL's media capabilities are robust and effective. 
Moreover, their ability to generate timely new propaganda continues to 
grow. Since January 1 of this year, more than 250 official ISIL 
products have been published on-line. The group has shown the capacity 
to use these products to speak to the full spectrum of potential 
audiences: Local Sunni Arab populations whom they are trying to co-opt 
and exercise dominion over, coalition countries, and populations around 
the world--including English-speaking audiences here and across the 
globe.
    As you would expect, ISIL uses the most popular social media 
platforms to disseminate this messaging--YouTube, Facebook, and 
Twitter. They know how to ensure that once their media releases are 
posted, that they reach wide and far almost instantaneously, with re-
posting and generation of follow-on links and translations into 
additional languages.
    In terms of content, we've all seen that it includes those horrible 
images in which hostages have been murdered or ISIL's adversaries on 
the battlefield have been executed.
    But we've also seen the social media images of a bucolic, family-
friendly, welcoming life under ISIL's rule in their self-declared 
caliphate, as ISIL tries to paint a picture to entice disenfranchised 
individuals seeking ideological, religious, and personal fulfillment, 
not just a battlefield or martyrdom experience.
    ISIL also generates releases that cater to a younger population 
more familiar with popular culture. These releases often reference 
Western brands--including popular video games--to appeal to thrill 
seekers and youth looking for fulfillment. They have also coined pithy 
``memes'' such as, ``YODO: You Only Die Once. Why not make it 
martyrdom?''
    ISIL supporters have also enhanced the group's presence on the 
internet, expressing their alliance in various languages--in countries 
from Belgium to the Philippines--in their ``We are ISIL'' campaign.
    In short, ISIL has proven far more adept than core al-Qaeda--or any 
of al-Qaeda's affiliates--at using new media tools to reach a broader 
audience.
                         foreign fighter travel
    How do we disrupt travel by foreign fighters to conflict zones, 
Syria in particular? The volume and diversity of recruits flowing to 
and from the conflict areas make disruption especially challenging. 
There is no single pipeline for foreign fighter travel into and out of 
Syria. Violent extremists take different routes, including land, air, 
and sea. Most routes involve transit through Turkey because of its 
geographic proximity to the Syrian border areas where violent extremist 
groups operate. Turkey has signed visa-free travel agreements with more 
than 69 governments, which limit the requirement for traveler 
screening. No visas are required for most E.U. citizens, some of whom 
are also able to travel on identity cards. Many would-be fighters 
simply take direct or indirect commercial flights to Turkish airports. 
Some European fighters also travel overland via the Balkans. Violent 
extremists from the Caucasus transit Iran, Russia, or Georgia en route 
to Turkey. Other extremists, including those from Europe or North 
Africa, use maritime routes by boarding cruise ships or ferries to 
Turkey before crossing into Syria.
    Recently, Turkey has stepped up its efforts to deny entry to 
potential foreign fighters based on information provided by the 
fighters' countries of origin. The ``Turkish Banned from Entry List'' 
now reportedly includes 10,000 individuals.
    In response to the recent attacks in Paris and arrests in several 
European countries of violent extremists planning terrorist attacks, we 
see an increased political willingness among our foreign partners to 
review and enhance border controls and institute stronger watchlisting 
and information-sharing arrangements. In fact, tomorrow, the European 
Union is holding a summit on foreign fighter issues, and we hope to see 
additional border security and information-sharing initiatives as a 
result of this meeting. Additionally, the summit will most likely 
address counterterrorism legal mechanisms in the European Union and a 
discussion of terrorist use of the internet, all worthwhile and 
meaningful steps to greater cooperation in Europe.
    Our partners in North Africa and Asia are also passing new 
counterterrorism laws and identifying other means to identify, 
interdict, and prosecute foreign fighters and those who support them. 
Egypt, Jordan, Saudi Arabia, Qatar, Turkey, and the UAE have all 
recently enacted legislation or regulations to address the foreign 
fighter issue.
    While good efforts are underway, significant work remains, 
particularly in ensuring that our foreign partners are able and willing 
to identify and stop foreign fighters at their borders--both to prevent 
fighters from entering and to stop fighters from leaving their home 
countries to travel abroad. These efforts must include a range of 
measures, including screening visa applicants; using Passenger Name 
Records or other data to identify potential foreign fighters; applying 
increased screening measures at points of departure; and a willingness 
to share information through INTERPOL, the United Nations, and 
bilateral relationships.
             nctc efforts to address foreign fighter threat
    NCTC is undertaking a broad Center-wide effort to track foreign 
fighters traveling to Syria, working closely with our intelligence 
community partners. We work to resolve the identities of potential 
fighters to uncover possible derogatory information in NCTC holdings. 
Additionally, the U.S. Government continues to work closely with 
foreign partners to combat threats emanating from Syria.
    As part of this effort, NCTC aggregates information on known or 
suspected terrorists traveling to Syria in the Terrorist Identities 
Datamart Environment (TIDE). TIDE is the U.S. Government's central 
repository for terrorist identity intelligence. It is also an analytic 
tool, and this effort has created a valuable forum for identifying, 
tracking, and sharing information with law enforcement, 
counterterrorism, screening, and watchlisting communities on known or 
suspected terrorists.
    Our metrics-based tracking and assessment of these terrorist 
identities has directly helped resolve inconclusive identities, enhance 
TIDE records, and upgrade watch list statuses on several hundred known 
or suspected terrorists.
    NCTC's Pursuit Group--which develops investigative leads for our 
partner agencies to pursue--is working to identify foreign fighters 
entering Syria who have potential access or connections to the 
homeland, so they can be watchlisted. This analysis leverages NCTC's 
unique accesses: A wider range of IC and law enforcement information 
than any other agency through our own counterterrorism data holdings as 
well as natively through embedded officers from ten other agencies.
                      home-grown violent extremism
    The threat we face is not just from foreign fighters or terrorist 
groups including ISIL and al-Qaeda. Individuals inspired by those and 
other groups, or simply by violent extremist propaganda, can be 
motivated to action, with little to no warning. Many of these so-called 
home-grown violent extremists (HVEs) are lone actors, who can 
potentially operate undetected and plan and execute a simple attack.
    We closely monitor violent extremist activity, including when such 
activity occurs in the United States, for signs that last year's 
attacks in Canada and New York may embolden other HVEs to conduct 
additional attacks. ISIL's rhetoric may have played a role in those 
attacks, particularly in target selection.
    More broadly, we believe the HVE threat will remain at its current 
level resulting in fewer than 10 uncoordinated and unsophisticated 
plots annually from a pool of up to a few hundred individuals, most of 
whom are known to the IC and law enforcement.
                   countering violent extremism (cve)
    The growing number of individuals going abroad as foreign fighters 
to Syria only emphasizes the importance of prevention. Any hope of 
enduring security against terrorism or defeating organizations like 
ISIL rests in our ability to diminish the appeal of terrorism and 
dissuade individuals from joining them in the first place.
    To this end, we continue to refine and expand the preventive side 
of counterterrorism. We have seen a steady proliferation of more 
proactive and engaged community awareness efforts across the United 
States, with the goal of giving communities the information and the 
tools they need to identify extremism in their midst and do something 
about it before it manifests itself in violence. NCTC, in direct 
collaboration with DHS, DOJ, and FBI, has led the creation of CVE tools 
to build community resilience across the country.
    Working closely with these partners, NCTC is engaged in this work 
all across the country, and I will point to just one example.
    You will recall the case last year in which three young teenage 
girls allegedly attempted to travel from Denver to Syria by way of 
Frankfurt, Germany, where their travel was disrupted.
    In the aftermath of that incident, we, in concert with DOJ, DHS, 
and FBI, sent our officers on multiple occasions to meet with the 
greater Denver community and to raise awareness among community and law 
enforcement audiences about the terrorist recruitment threat. The 
briefing, developed with our partners, is now tailored to address the 
specific issue of foreign fighter recruitment in Syria and Iraq. We and 
our partner agencies have received a strong demand signal for more such 
outreach.
    This isn't a law enforcement-oriented effort that might be 
perceived as intimidating. Rather, it's an effort to share information 
about how members of our communities are being targeted and recruited 
to join terrorists overseas. Seen in that light, we've had a remarkably 
positive reaction from the communities with whom we have engaged.
    We continue to expand our CVE tools. With our DHS colleagues, we 
have created and regularly deliver the Community Resilience Exercise 
program, a table-top exercise that brings together local law 
enforcement with community leadership in a city to run through a 
hypothetical scenario featuring a possible violent extremist or foreign 
fighter. We were pleased that House Homeland staff was able to attend a 
recent exercise in Minneapolis.
    We realize we cannot institutionalize a prevention approach without 
scaling up these efforts. Our agency is creating programs to train 
individuals on CVE tools to ensure that communities across the country 
are able to lead on CVE approaches locally. This approach syncs with 
the efforts of the White House, NCTC, DHS, DOJ, and FBI to facilitate 
the local development and implementation of prevention and intervention 
frameworks in cities across the country.
                               conclusion
    Confronting the threat of foreign fighters and working with resolve 
to prevent another terrorist attack remains the counterterrorism 
community's overriding mission. NCTC recently celebrated its 10th year 
in service to the Nation, and we remain focused on continuing to 
enhance our ability to counter the terrorist threat in the years ahead.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for the opportunity to testify before you this 
morning. I look forward to answering your questions.

    Chairman McCaul. We just have many Members here to ask 
questions, and there will be plenty of time to talk about that, 
but we appreciate you being here today. Thank you, Director.
    Chairman now recognizes Assistant Director Steinbach for 
his opening statement.

    STATEMENT OF MICHAEL B. STEINBACH, ASSISTANT DIRECTOR, 
 COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATIONS, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Steinbach. Good morning, Chairman McCaul, Ranking 
Member Thompson, Members of the committee. Thank you for the 
opportunity to appear before you today to discuss the dynamic 
threat of foreign fighters traveling in support of the Islamic 
State of Iraq and the Levant, commonly known as ISIL, and the 
continued threat to the United States posed by home-grown 
violent extremists.
    These threats remain among the highest priorities for the 
FBI and the intelligence community as a whole. However, it is a 
blending of the home-grown violent extremism with foreign 
fighter ideology which is today's latest adaptation of the 
threat.
    Conflicts in Syria and Iraq are currently the most 
attractive overseas theaters for Western-based extremists who 
want to engage in violence. We estimate upwards of 150 
Americans have traveled or attempted to travel to Syria to join 
extremist groups. While this number is small in comparison to 
the number of European travelers, we must also consider the 
influence groups like ISIL have on individuals located in the 
United States who are inspired to commit acts of violence. It 
is this influence which I refer to as the blended threat.
    ISIL has proven ruthless in its campaign, in its violent 
campaign to rule, and has become yet the latest terror group 
attracting like-minded Western extremists. Yet from a homeland 
perspective, it is ISIL's wide-spread reach through the 
internet and social media which is the most concerning, as ISIL 
has proven dangerously competent like no other group before it 
at employing such tools in furtherance of its nefarious 
strategy.
    ISIL uses high-quality traditional media platforms, as well 
as a multitude of social media campaigns to propagate its 
extremist ideas. Like al-Qaeda and other foreign terrorist 
organizations, ISIL has effectively used the internet to 
communicate, to both radicalize and recruit. Unlike other 
groups, ISIL has gone one step further and demonstrates an 
effectiveness to spot and assess potential recruits.
    Social media in particular has provided ISIL with the 
technical platform for wide-spread recruitment, operational 
direction, and consequently has helped bridge the gap between 
foreign fighters and home-grown extremists. As a communication 
tool the internet remains a critical mode for terror groups to 
exploit.
    One recent example just occurred this past week. A group of 
five individuals was arrested for knowingly and willingly 
conspiring and attempting to provide material support and 
resources to a designated foreign terrorist organizations 
active in Syria and Iraq. Much of their conspiracy occurred via 
the internet.
    Following on other groups' doctrines, ISIL, too, has 
advocated for lone-wolf attacks. Last month, ISIL released a 
video via social media reiterating the group's encouragement of 
lone-wolf offender attacks in Western countries, specifically 
advocating for attacks against soldiers, law enforcement, and 
intelligence members.
    Several incidents have occurred in the United States and 
Europe over the past few months which indicate this call to 
arms has resonated amongst ISIL, supporters and sympathizers. 
In one case, an Ohio-based man was arrested in January after he 
obtained a weapon and stated his intent to conduct an attack on 
the U.S. Capitol in Washington, DC, as was mentioned here 
earlier. Using a Twitter account, the individual posted 
statements, video, and other content indicating his support for 
ISIL, and he planned his attack based on his voiced support.
    Likewise, recent events in Australia, Canada, France, and 
the United Kingdom reflect the power of this radicalized 
message and reemphasize our need to remain vigilant in the 
homeland, since these small-scale attacks are just as feasible 
within the United States.
    We should also understand community and world events, as 
viewed through the eyes of the committed individual, may 
trigger action. As we have seen with highly-publicized events 
such as the attack on military personnel at the Tomb of the 
Unknown Soldier in Canada and the hostage situation at the cafe 
in Australia, these acts of terror will attract media 
attention--international media attention and may inspire copy-
cat attacks.
    ISIL, however, is not the only high-profile terrorist 
organization of concern. Al-Qaeda in the Arabian Peninsula, 
AQAP, poses an on-going threat to the homeland and U.S. 
interests abroad. AQAP's on-line magazine, Inspire, advocates 
for lone wolves to conduct attacks against the homeland and 
Western targets by utilizing simple and inexpensive tactics and 
methods. On December 24, 2014, AQAP released the 13th edition 
of the magazine, which provides instructions for building and 
deploying an IED.
    Lastly, social media has allowed groups such as ISIL to use 
the internet even more effectively at spotting and assessing 
potential recruits. With the wide-spread horizontal 
distribution of social media, terrorists can identify 
sympathetic individuals of all ages in the United States, spot, 
assess, recruit, and radicalize either to travel or conduct a 
homeland attack.
    The foreign terrorist now has direct access into the United 
States like never before. As a result, it is imperative that 
the FBI and all law enforcement organizations understand the 
latest communication tools and are equipped to identify and 
prevent terror attacks in the homeland.
    We live in a technologically-driven society, and just as 
private industry has adapted to modern forms of communication, 
so have the terrorists. Unfortunately, changing forms of 
communication on the internet and through social media are 
quickly outpacing laws and technology designed to allow for the 
lawful intercept of communication content. This real and 
growing gap the FBI refers to as ``going dark'' must be 
urgently addressed as the risks associated with going dark are 
grave both in traditional criminal matters, as well as National 
security matters.
    We must continue to build partnerships and work with 
internet providers and social media companies to ensure 
appropriate, lawful collection is possible. Most companies are 
not required by statute to development lawful intercept 
capabilities for law enforcement. As a result, services are 
developed and deployed without any ability for law enforcement 
to collect. The FBI, in partnership with the Department of 
Homeland Security, is utilizing all investigative techniques 
and methods to combat the threat these individuals pose to the 
United States. In conjunction with our domestic and foreign 
partners, we rigorously collect and analyze intelligence as it 
pertains to on-going threats posed by ISIL, AQAP, and other 
foreign terrorist organizations.
    In partnership with our many Federal, State, and local 
agencies assigned to the Joint Terrorism Task Forces around the 
country, we remain vigilant to ensure the safety of the 
American public. Be assured the FBI continues to pursue 
increased efficiencies and information-sharing processes to 
stay ahead of the threat to the homeland.
    Chairman McCaul, Ranking Member Thompson, and committee 
Members, I thank you for this opportunity to testify concerning 
the foreign fighter threat and home-grown violent extremist 
threat posed to the homeland. I am happy to answer any 
questions at this time.
    [The prepared statement of Mr. Steinbach follows:]
               Prepared Statement of Michael B. Steinbach
                           February 11, 2015
    Good morning Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. Thank you for the opportunity to appear before you 
today to discuss the dynamic threat of foreign fighters traveling in 
support of the Islamic State of Iraq and the Levant (ISIL) and the 
rising threat to the United States from home-grown violent extremism. 
This threat remains one of the biggest priorities not only for the FBI 
but for the intelligence community (IC) as a whole and our foreign 
partners.
    Conflicts in Syria and Iraq are currently the most attractive 
overseas theater for Western-based extremists who want to engage in 
violence. We estimate upwards of 150 Americans have traveled or 
attempted to travel to Syria to join extremist groups. However, once in 
Syria, it is very difficult to discern what happens there. This lack of 
clarity remains troubling to the IC.
    ISIL has proven to be relentless and continues to terrorize 
individuals in Syria and Iraq, including Westerners. We are concerned 
about the possibility of home-grown extremists becoming radicalized by 
information available on the internet. ISIL utilizes high-quality, 
traditional media platforms, as well as wide-spread social media 
campaigns, to propagate its extremist ideas. The group's ability to 
produce visually appealing messaging coupled with the rampant use of 
social media by ISIL supporters exhibits the diverse propaganda 
capabilities. Combined, these tactics result in sophisticated 
propaganda which may continue to inspire individuals in the homeland to 
travel to fight overseas. Recent propaganda releases include multiple 
issues of English language publications, including a complete English 
magazine. Several videos of ISIL-held hostages and videos 
sensationalizing ISIL members have also been released.
    The threat to American interests overseas is most acute in Iraq, 
but extends throughout the Middle East region and to the West. There is 
little doubt that ISIL views the United States and the West as a 
strategic enemy. A year ago, the leader of ISIL warned the United 
States will soon be in direct conflict with the group. In January 2015, 
ISIL released a video via social media networking sites reiterating the 
group's encouragement of lone-offender attacks in Western countries; 
specifically advocating for attacks against soldiers, patrons, law 
enforcement, and intelligence members. Several incidents have occurred 
in the United States and Europe over the last few months that indicate 
this ``call to arms'' has resonated among ISIL supporters and 
sympathizers.
    Our Western partners in Australia, Canada, France, and the United 
Kingdom (UK) have recently disrupted plotting and, unfortunately, had 
security officers attacked by individuals linked to ISIL or other forms 
of violent extremism. A French national who took hostages in Paris and 
shot and killed a policewoman in early January, claimed he was an ISIL 
supporter. In December 2014, another French national entered a police 
station in France and began stabbing police officers before being 
killed by police in a violent extremism attack. Two separate attacks in 
Canada in October 2014 targeted Canadian soldiers. Additionally, in 
September and October, the U.K. and Australian authorities separately 
thwarted attacks targeting local law enforcement. In each scenario, the 
apprehended individuals had suspected ties to ISIL.
    The FBI remains concerned the recent calls by ISIL and its 
supporters on violent extremist web forums, and the recent events in 
Europe could continue to motivate home-grown extremists to conduct 
attacks in the homeland. On-line supporters of ISIL have used various 
social media platforms to call for retaliation against the United 
States in the homeland. In one case, an Ohio-based man was arrested in 
January after he obtained a weapon and stated his intent to conduct an 
attack on the U.S. Capitol in Washington, DC. Using a Twitter account, 
the individual posted statements, videos, and other content indicating 
support for ISIL, and he planned his attack based on this voiced 
support.
    Al-Qaeda in the Arabian Peninsula (AQAP) continues to pose one of 
the greatest threats to the United States. AQAP's on-line English 
magazine Inspire advocates for lone wolves to conduct attacks against 
the homeland and Western targets by utilizing simple and inexpensive 
tactics and methods. The most recent edition of Inspire was released 
via social media sites in December 2014. As with the previous editions, 
the magazine promotes the need for lone wolves to carry out small arms 
attacks and provides specific, detailed ``how-to'' instructions for 
constructing a successful bomb.
    Historically, AQAP has been focused on large-scale transportation 
and aviation plotting. However, last month's shooting at a satirical 
magazine's office in Paris demonstrates the sophisticated ability of 
individuals inspired or directed by AQAP to conduct coordinated attacks 
by combining small arms and explosive devices. The attackers 
demonstrated extensive preparation and maintained a level of discipline 
throughout the attack. This assault shows a new wave of extremism; a 
blending of home-grown violent extremism and an association with a 
foreign terrorist organization.
    Soon after the attacks in Paris, authorities in Belgium conducted a 
raid against several individuals who were allegedly planning an attack 
against police personnel. These individuals purportedly had ties to 
ISIL and allegedly had some connections to the Paris attackers. Our 
European partners remain on heightened alert and continue to take the 
steps necessary to mitigate imminent threats.
    The recent events in Europe re-emphasize our need to remain 
vigilant in the homeland as these small-scale attacks are feasible 
within the United States. Individuals inspired by foreign terrorist 
groups could be covertly arming themselves with expertise and tools to 
carry out an attack in the homeland. Community and world events may 
trigger one of these individuals to act. We remain concerned these 
types of events, which were widely broadcasted in the media, could 
inspire ``copy-cat'' attacks. Additionally, as we saw after ISIL posted 
videos depicting beheadings of hostages, we continue to see 
intelligence advocating plots which include public or videotaped 
beheadings.
    The FBI, in partnership with the Department of Homeland Security, 
is utilizing all investigative techniques and methods to combat the 
threat these individuals may pose to the United States. In conjunction 
with our domestic and foreign partners, we are rigorously collecting 
and analyzing intelligence information as it pertains to the on-going 
threat posed by ISIL, AQAP, and other foreign terrorist organizations. 
In each of the FBI's 56 Field Offices, the Joint Terrorism Task Forces 
remain vigilant to ensure the safety of the American public. Given the 
global impact of the Syria and Iraq conflicts, regular engagement with 
our domestic and foreign partners concerning foreign fighters is 
critical.
    The FBI continues to pursue increased information sharing, efforts 
to combat radicalization, and exchanges regarding community outreach 
programs and policing strategies.
    Chairman McCaul, Ranking Member Thompson, and committee Members, I 
thank you for this opportunity to testify concerning the threat foreign 
fighters and home-grown extremists pose to the homeland. I am happy to 
answer any questions you might have.

    Chairman McCaul. Thank you, Director. Chairman now 
recognizes himself for 5 minutes.
    You know, the American people have seen Americans, the 
American journalists, beheaded by the executioner, ISIS 
executioner. It was a wake-up call for the United States, Kayla 
Mueller, who was just recently executed, and the Jordanian 
pilot, in one of the most horrific videos I have ever seen, and 
a very sophisticated Hollywood movie production style, lit on 
flames. They are barbarians, and I think the barbarians are at 
the gate.
    We want to keep them outside the gate of the United States. 
I am concerned that some have already returned. So my first 
question is--we know there are 50,000 ISIS strong. We know that 
foreign fighters have gone from 15,000 to 20,000. We know that 
5,000 of these foreign fighters have Western passports that 
could get them entrance into the United States. As Director 
Rasmussen mentioned, there are hundreds of Americans who have 
traveled to the region to fight with ISIS. We know that some of 
them have returned, and that is a Classified number.
    But my first question is, for those who have returned to 
the United States, what assurance can you give the American 
people--what confidence do we have, first that we know all the 
people who have joined the fight and returned? What are we 
doing about it to ensure that they do not attack here in the 
United States? Director Rasmussen.
    Mr. Rasmussen. I will start, but I will ask Mike Steinbach 
to pitch in on the bureau's efforts here.
    In talking about the numbers, Mr. Chairman, you are right 
to raise questions about our overall level of confidence in 
numbers. As I tried to say in my remarks, we know what we know, 
but that comes from a wide variety of sources, and we have 
always assessed that there is likely more information out there 
that we have not yet been able to collect either from our 
foreign partners or from other intelligence means, and that it 
is possible that there are greater numbers of foreign fighters, 
and potentially even greater numbers of individuals from 
Western countries and the United States who have traveled to 
the conflict zones.
    I will let Mike speak to the question of what we can say 
about individuals who have traveled to the conflict zone and 
come back, but it is obviously the highest-possible priority 
for the intelligence community to track their movements.
    Chairman McCaul. Mr. Steinbach.
    Mr. Steinbach. So certainly, I would not be truthful if I 
told you that we knew about all the returnees. We--like Nick 
said, we know what we know. There is a number that we don't 
know about.
    The ones we know about, the numbers of foreign fighters 
that have returned from Syria, from the conflict zone, every 
single one of those is a predicated FBI investigation run on 
the Joint Terrorism Task Force. Regardless of the intelligence 
or the information that we started with, we go to build the 
case to disrupt, whether that disruption is in the form of 
deportation or whether that disruption is in the form of 
prosecution.
    Every single one of those known foreign fighters is an FBI 
investigation, and we seek to determine the root cause of their 
travel, what they did in Syria, and then ultimately, if it was 
in support of a foreign terrorist organization such as ISIL, we 
look for prosecution or some other disruption.
    Chairman McCaul. Well, in my briefings in having served as 
a Federal prosecutor, as well, I certainly understand that. I 
want to commend the FBI for its efforts in this very difficult 
task to monitor. You are right, you don't know what you don't 
know. I don't think our human intelligence on the ground in 
Syria is sufficient to properly identify these individuals, and 
hopefully, the administration will move forward to do that.
    General Taylor, in regards to travel. At Homeland Security, 
there is a lot of it is about travel, keeping people off 
airplanes, whether it be al-Nusra, Khorasan Group, AQAP with 
bombs or these foreign fighters in Syria with ISIS off 
airplanes. There has been some concern that our European 
partners have not been fully cooperative.
    A good example is the brothers in the Paris attacks, went 
to Yemen, were on a No-Fly list. We share that information with 
them. I don't know what they are doing with that. I am 
concerned about Turkey in terms of their cooperation because, 
let's face it, these foreign fighters are like a highway going 
through in and out of Turkey, as demonstrated by the female 
terrorist in the grocery store who left Paris, went to Istanbul 
and into Turkey.
    What are we doing to ramp up these efforts with our 
European partners and with Turkey?
    Mr. Taylor. Thank you, Mr. Chairman. Certainly, as you 
indicate, one of our major on-going concerns is a foreign 
terrorist fighter on an airline coming to the United States 
from a last-point-of-departure airport. As I indicated in my 
remarks, we have taken action since July to ramp up security of 
our aircraft at those locations around Europe and in the Middle 
East and elsewhere, where we assess there is a potential for 
those individuals to try to exploit airplane travel to get to 
the United States.
    In addition, the Secretary has directed additional 
requirements under the ESTA, the Visa Waiver program, to 
strengthen the amount of data that we have to assess against 
our community records within both DHS and within the 
intelligence community, so we can spot and assess--spot 
individuals who may be involved in nefarious activity.
    I would say that we are all concerned that we only know 
what we know. Ramping up our work with our European partners 
and other partners around the world has certainly increased 
since the attacks in Paris. I was just in London last week with 
the Five Country Ministerial. There is a clear understanding 
that sharing of information on these individuals across all of 
our five country partners is critical to the ability to detect.
    We now have, and I would ask Nick to speak a little bit to 
it, within NCTC the capacity to begin to track these 
individuals that we are getting data on from across the world. 
That gives us a better confidence that if someone were to try 
to circumvent our security systems, we would at least be able 
to know who they were and what they were trying to accomplish.
    That is not a perfect system yet, we continue to add to it 
today. I just saw a report this morning, so it continues to 
grow, but the cooperation with our European partners has been 
significantly enhanced in the course of the last 6 months.
    Chairman McCaul. Well, I think since Paris it has been 
enhanced. I know it is--if State Department was here they could 
answer the coordination and cooperation with these databases. 
No-fly list, terrorist watch list, we have had a difficult time 
having them recognize that in Europe, Canada with some privacy 
concerns as well, and I hope that we can work that out so that 
we have a free exchange of intelligence and information to keep 
these terrorists off airplanes, stop the travel, and stop them 
from coming into the United States.
    My time is just about expired, but one last question. The 
state is not here to answer this, but I am very concerned and I 
sent a letter to Susan Rice about these refugees, both in Syria 
and Turkey. I have been over there and I have seen them. Yes, 
most of them are women and children, but there are male actors 
that concern me.
    I think this would be a huge mistake if we bring in these 
refugess into the United States that could potentially be 
radicalized. Then we got a--we are not only trying to keep 
these guys, the foreign fighters, out, but under this would be 
a Federally-sanctioned welcome party, if you will, to potential 
terrorists in the United States.
    Can the three of you, and I know this is a very maybe 
awkward question to ask you, but all three of you, do you agree 
with that policy that we should bring in these Syrian refugees 
into the United States?
    Mr. Taylor. Sir, I am not in a position to agree with the 
policy, that is really under the offices of the Secretary of 
State and his response----
    Chairman McCaul. But do you think that would pose a threat 
or danger to Americans?
    Mr. Taylor. We are concerned about any group of people 
coming to the United States who may be coming to the United 
States for nefarious purposes. Therefore, under our CIS 
responsibilities, want to make sure that if we are asked to vet 
individuals from any part of the world to come to the United 
States, that we have applied the most rigorous screening that 
is available within the U.S. Government.
    I think we have learned that lesson in the past, and so any 
tasking we are given from a Departmental point of view with our 
intelligence community partners will be as thorough as we can 
make it to make sure----
    Chairman McCaul. My time is--I mean, very succinctly, 
Director Rasmussen, Mr. Steinbach, would that bring in Syrian 
refugees pose a greater risk to Americans?
    Mr. Rasmussen. I mean, it is clearly a population of 
concern and, as Under Secretary Taylor said, what we want to be 
able to do is apply the full weight of U.S. intelligence 
community holdings to the vetting and screening process so that 
we can unearth any information that we may have in our holdings 
that gives us concern about particular individuals.
    Thank you. The Chairman recognizes the Ranking Member.
    Chairman McCaul. Well, you said we don't know what we don't 
know.
    Mr. Steinbach.
    Mr. Steinbach. Yes, I am concerned. We will have to take a 
look at those lists and go through all of the intelligence 
holdings and be very careful to try and identify connections to 
foreign terrorist groups.
    Chairman McCaul. Thank you.
    Chairman recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Following on the Chairman's questioning, is it our 
procedure for anyone coming to this country that we provide a 
thorough vetting of that individual, or those individuals, 
before they are allowed to come?
    Mr. Taylor. Yes, sir, it is.
    Mr. Thompson. Is that your understanding, Mr. Rasmussen?
    Mr. Rasmussen. Yes--National Counterterrorism Center as a 
information center provides the information that allows the 
screening agencies to decide--make the decisions on entry or 
exit.
    Mr. Thompson. Mr. Steinbach.
    Mr. Steinbach. You have to have information to vet, so the 
concern in Syria is that we don't have systems in places on the 
ground to collect the information to vet. That would be the 
concern is we would be vetting--databases don't hold the 
information on those individuals, and that is the concern.
    Mr. Thompson. Thank you.
    This is to General Taylor and to you, Director Steinbach. 
The Business Executives for National Security recently released 
a report finding that U.S. law enforcement and intelligence 
agencies are currently operating without an enterprise-wide 
concept at the Federal level. This inhibits the Federal 
Government's ability to conduct domestic intelligence 
activities in support of counterterrorism. This is a concern 
given the fact that there could be potential home-grown violent 
extremists here in the United States.
    Do you agree with that assumption?
    Mr. Taylor. Sir, I have had a conversation with the BENS 
leadership. We don't agree with that assumption. We believe the 
enterprise partnership that we have with the FBI is as strong 
and as effective as it can be today, especially adding the 
information that is available through the NCTC.
    So, no, we do not agree. Things can be better. We work at 
making it better every day, but the lack of an enterprise 
approach I don't think is a fair assessment of where we are 
today.
    Mr. Thompson. Director Steinbach.
    That BENS strategy piece is outdated. It was a good 
attempt, but they looked at information that was 4 or 5 years 
old, so no, I don't agree. Updated information, had they looked 
at what is going on now, they would have likely come to a 
different conclusion.
    Mr. Thompson. Have you shared that with the business 
executives?
    Mr. Steinbach. Yes, we have.
    Mr. Thompson. Thank you.
    General Taylor, you have outlined in quite detail what the 
impact of not being funded after February 27 would be. We are 
talking about the threat to foreign fighters and home-grown 
terror.
    Can you, in short order, indicate to this committee what 
kinds of impact without money the Department would be faced?
    Mr. Taylor. Certainly, sir. Certainly, sir, and not a total 
list, but for example, nearly $2.6 billion in funding for new 
grants, including $103 billion in homeland security grants and 
$680 million in foreign fighters assistance grants cannot be 
approved--disseminated under the current continuing resolution.
    One hundred ninety million dollars in new upgrades for 
remote and mobile--video surveillance along the Rio Grande 
Valley to enhance our detection capability there. One hundred 
forty-two million dollars in Secret Service protective 
activities as we are get into the election cycle. So, there is 
a long list of things that we are precluded from doing and 
investing in without a full funding bill from the Congress.
    Mr. Thompson. One of the things that a lot of us are 
confronted with as well as our constituents, is we all have 
Federal buildings in our communities. After the situation in 
Paris, the Secretary ordered an enhanced effort at those 
Federally-protected facilities. Would the lack of money for the 
Department create a security risk at some of those buildings?
    Mr. Taylor. Sir, I can't speak spec--we are continuing to 
enhance our security efforts at facilities across the country, 
Federal facilities that we are charged with protecting. 
Specifics on whether or not FPS would be able to continue that, 
I would have to take that as a question and get back to you.
    Mr. Thompson. Please, I think we need to hear since we have 
quite a few of those facilities.
    Mr. Taylor. Yes, sir.
    Mr. Thompson. I yield back.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I will yield my time to 
my colleague from Texas, Mr. Hurd.
    Mr. Hurd. I would like to thank the gentleman from Texas 
and you here today. I appreciate you all coming here.
    I know the difficulty of the task that you all are charged 
with having spent 9 years as an undercover officer in the CIA, 
chasing al-Qaeda and the Taliban and places like that--
organizations like that. I know the difficulty and--I know that 
the people in your--the men and women in your organizations are 
operating as if it is September 12, 2001. Please, when you go 
back to your organizations, thank them for all of their hard 
work on behalf of us.
    When I was in Pakistan, Afghanistan, you know, the bad guys 
would push their message through night letters. At night, they 
would drop letters on people's doorsteps. Now, they have social 
media, and all three of you will have highlighted that in your 
testimony and in the documents that you submitted.
    My question is--is what efforts--who is coordinating the 
effort to counter that ideology on social media and these other 
elements? You know, 20 percent of any counter-insurgency is 
cutting off the head of the snake, 80 percent is addressing the 
underlying concerns.
    Who is leading that? What are you guys doing in each one of 
your agencies to counter that?
    Mr. Rasmussen. I will start, and certainly welcome help 
from my partners up here.
    In terms of the counter-ISIL strategy that the President 
has laid out for our effort to degrade and ultimately defeat 
ISIL, State Department has the lead for working with our 
international partners and the overseas environment to counter 
violent extremism, and to create a counter-narrative and a 
counter-messaging effort. I would certainly defer to them to 
kind-of describe the whole range of activities which have 
included a number of overseas summit meetings and other 
gatherings designed to coordinate, particularly inside the 
region, inside the Middle East to make sure that our partners 
in the coalition are doing their part to counter the narrative.
    Here at home, we have, as I described in my testimony, I 
think a very effective partnership among the four agencies and 
departments with responsibility for countering violent 
extremism. DHS, the FBI, the Department of Justice, and NCTC. 
As I said, we work together almost seamlessly on a range of 
difference CVE initiatives, leveraging the capabilities that 
each of our departments have.
    I say that because it is the law enforcement community that 
has the reach into local law enforcement. So FBI has that 
advantage. Homeland Security has the reach into a network of 
community organizations and other Homeland Security-oriented 
populations in our major metropolitan areas that gives them 
reach into. NCTC tries to provide analytic support and, you 
know, content generation to help us with this effort at 
outreach in the domestic environment.
    So, it really is--I rarely would say this--we are seamless 
as we could, I think, almost possibly be in terms of our work 
together. The question is, as I mentioned to the Chairman 
earlier, is scale. Are we doing enough of it? Do we have enough 
reach into all of the parts of the country where this is a 
potential problem? I would not argue to you that we are there 
yet on that score.
    Mr. Hurd. Thank you.
    Mr. Rasmussen. The President's CVE summit will give us a 
chance to kind-of give that an important boost.
    Mr. Steinbach. Yes, just one note on context. So, you know, 
part of is--a part of this message has to be pushed down at the 
local level, just like parents have to watch their children on 
the internet and on social media for pedophiles and financial 
criminals. We have to have that same message. You have to have 
interaction. If you look at the case in Denver that was 
highlighted, you look at other cases, we see a lack of 
understanding by parents and guardians to what is going on, and 
that tool needs to be monitored. It is a powerful tool and it 
provides quite a bit of reach. So, that is a part of it at the 
local level.
    Mr. Hurd. Thank you. Next question is two parts.
    Again, when I was, you know, in the intelligence community 
and operating an alias, I would frequently travel to a lot of 
countries, and I never ended up going to that end destination. 
I would go somewhere else driving because it was a lot easier. 
So, you know, the concept of broken travel.
    What are you all doing in order to monitor the broken 
travel of folks that may end up going to Syria, but don't go 
directly there, drive in? The other issue is, what new 
intelligence capabilities do we need in Syria in order for you 
all better do your job back here?
    Mr. Taylor. Let me speak first, sir, to the nature of how 
we monitor broken travel. It is a concern. People can book a 
flight to an end-destination, and stop at an end-point and go 
other places. We understand that phenomenon.
    We are able to use our travel data to better spot those 
instances when they occur. As I mentioned earlier, taking that 
information and bouncing it against the other holdings within 
the community to better understand the phenomenon. It is not 
perfect yet. It continues to refine, but it is an issue that we 
now understand how that works and use our travel security tools 
to monitor it most effectively.
    Mr. Rasmussen. Sir, you raise a very good point about the 
challenge of collecting intelligence in Syria right now. 
Without going into too much detail in an open session, it is a 
tremendously challenging collection environment for all of our 
intelligence agencies because we are not present on the ground 
there in a traditional way. We don't have the footprint on the 
ground that we would have in many places around the world with 
a diplomatic, military, and intelligence presence.
    So, we are forced to be more creative, more innovative, 
more entrepreneurial in trying to close that gap.
    We can talk about that more in closed session, but it--all 
of the intelligence agencies have prioritized this at the 
absolute top of our priority list in terms of devoting 
resources, energy, and effort to do so. I would not argue, 
though, that we have closed the gap on where we need to be in 
terms of our understanding with granularity what is going on on 
the ground in Syria.
    In many cases, the information we have about foreign 
fighters traveling into the conflict zone stops when they get 
there, and we don't have as much insight, or nearly enough 
insight, into what actually happens when they are on the ground 
in Syria. That is a gap we are trying to close.
    Mr. Hurd. I think they covered it sufficiently. I yield 
back.
    Chairman McCaul. Gentleman's time has expired. The 
gentleman from Rhode Island, Mr. Langevin, is recognized.
    Mr. Langevin. Thank you, Mr. Chairman, and I want to thank 
our witnesses for your testimony today.
    I would like to turn to the discussion that we have been 
involved with this morning about tracking those individuals who 
have been in the conflict zone in Iraq or Syria fighting with 
ISIS who have U.S. or Western passports.
    It is my understanding that we have, you know, somewhat our 
arms around being able to track those with U.S. passports, but 
as we have alluded to this morning, we are talking about maybe 
on the hundreds, or a hundred or so persons with U.S. 
passports.
    But it could be in the thousands for people with Western 
passports that are fighting in Syria, many of whom with ISIS, 
and yet those individuals that could travel potentially then 
back to European countries and could come to the United States, 
particularly those from Visa Waiver countries--and what I am 
hearing, what I have heard in past testimony--that it is very 
difficult perhaps to track those individuals particularly 
because there are certain governments particularly in the 
European Union that are reluctant to share threat information 
on their citizens due to privacy concerns.
    I was just in Munich this past weekend at the Munich 
Security Conference, met with Britain's--their Secretary of 
Defense, and he confirmed that that is a concern not so much 
for the United Kingdom because their privacy laws are 
different, and so that kind of information sharing is not--
restricted from Great Britain, but more an issue with 
continental European countries.
    So has this been the experience of NCTC? What are we doing 
to close that gap? Because that is a significant blind spot for 
us.
    Mr. Rasmussen. In talking about sharing of information, 
particularly from our European partners, I think it is maybe 
useful to think of it happening in two different ways. One is 
kind-of structured, routinized sharing of travel information of 
the sort that Under Secretary Taylor mentioned before. We 
certainly want that kind of sharing from our European partners 
because it would help us with the screening that we are talking 
about.
    But the other kind of sharing that I think is worth 
mentioning, and where we have seen, I would say, a fairly 
dramatic improvement with our European partners over the last 
couple of years, is intelligence service to intelligence 
service sharing on individuals of specific terrorism concern.
    We have been on a bit of an evangelical effort over the 
past few years to try to engage our European partners on this, 
and I would argue that a couple of years ago, we were in the 
position of explaining, Gee, this is a terrible threat, we need 
to work together on it.
    We are well past that now. Any European capital you go to 
or any European partner you engage with jumps into that 
conversation right away and is quite open in sharing what they 
know, including often about their own citizens. What that 
allows us to do is potentially populate our TIDE, our Terrorist 
Identities Datamart Environment, with information about 
specific individuals that can aid our screening process.
    So I don't want to paint an entirely dire picture of our 
European partners' work in this area because I would argue that 
in intelligence channels, it has been almost unprecedentedly a 
good news story. Much room for improvement, and Europe is not a 
monolith, and so certainly, across the continent, there are 
areas where we could get better, more cooperative sharing 
arrangements.
    But I did want to distinguish between the two types of 
sharing because there is a kind of bulk data-sharing discussion 
that is sometimes more difficult for our European partners. 
Then there is more granular, specific sharing about known 
individuals on whom we have intelligence reporting where I 
think they are often quite responsive.
    Mr. Langevin. But what I want to get to is the question, 
should we be insisting or trying to work with NATO partners, 
our European partners, to change their privacy laws, or can 
Congress play a role in helping to ease these privacy concerns? 
For example, do you believe that the judicial redress announced 
last week as part of the PPD-28 review would help alleviate 
these challenges?
    Mr. Taylor. Sir, I would say that the privacy concerns in 
Europe are significant, and not just in this area of sharing 
terrorism information, but in all aspects of how private 
information is shared for business, for Government and 
elsewhere.
    The Chairman referred to it earlier. There are now new laws 
in several countries, particularly in the five I's about 
enhancing that sharing. There is a discussion at the European 
Union this week about EUPNR, which we are encouraged by and 
hope that the European parliament will move forward to pass a 
European-wide PNR requirement that allows for that data to be 
collected across Europe and shared across the European Union.
    We think that will be a big step, but we also think if that 
doesn't work, then we can work bilaterally with individual 
countries to share data. The important thing for us is using 
every tool in our toolkit to get the information shared between 
us and our partners, and back and forth. There is not one set 
of processes that are going to do that, but we are going to use 
every tool in the toolkit to make sure those relationships work 
and work effectively.
    Mr. Rasmussen. I would just add one thing, though, to your 
point, Mr. Langevin, on engaging European legislatures or 
parliaments. I mean, I think anything we can collectively do to 
send the message that if information is shared with us, we use 
it for the purposes that we have asked for it, and we handle it 
responsibly and in accordance with the terms on which it was 
given to us. If that can provide reassurance to European 
partners and increase the flow of information, then all to the 
good.
    Mr. Langevin. Okay. I appreciate your answer. I just would 
say I still think this is--until we get this seamless, and we 
are getting all the information that we need, it is a blind 
spot. I think it is a problem and I think we need to work on 
this.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. The gentleman from South Carolina, Mr. 
Duncan, is recognized.
    Mr. Duncan. Thank you, Mr. Chairman, for a very timely 
hearing. I would ask that we schedule a Classified hearing, 
briefing with some of these intelligence community to get a 
little different intake--input.
    Chairman McCaul. That is a good idea.
    Mr. Duncan. Yes. Thank you. So Director Rasmussen, al-
Qaeda--they are still alive and well, right? They are still a 
threat to freedom, global freedom?
    Mr. Rasmussen. Yes, sir. They certainly pose a significant 
terrorist threat.
    Mr. Duncan. In fact, I would say that al-Qaeda, ISIS, al-
Qaeda in all of its elements, AQAP, AQ MINA, Boko Haram, al-
Shabaab, Abu Sayyaf--all these terrorist groups are still 
active, right?
    Mr. Rasmussen. Yes, sir.
    Mr. Duncan. So we shouldn't take our eye off the ball with 
just focusing on ISIS and think of this globally and not get 
hung up on the 50 shades of terrorism, talk about terrorism 
about terrorism, that these groups are a threat all over the 
globe.
    So let me lay out a scenario that actually happened. I led 
a CODEL back in late May to Europe. Right before we arrived in 
Brussels, a foreign fighter had traveled to Syria about a year, 
I believe, maybe 18 months, radicalized, came back through 
Turkey, through Germany into Brussels, shot up a Jewish museum, 
killed three people. A fourth one was wounded. I don't know if 
that person died or not or remember that.
    That was right before we arrived. It was very--it was very 
real to the Belgians. It was very real to the French because 
this foreign fighter fled out of Belgium through France and was 
captured in Marseilles, trying to catch a boat or a plane to 
North Africa. Had he gotten out of Europe into North Africa, he 
would have disappeared.
    This was a foreign fighter that took advantage of the 
Schengen region, the open borders in Europe. From what I 
remember from talking with the folks in Europe at that time is 
that Germany had information about this individual who had 
traveled through Germany but failed to share in a timely manner 
with either the Belgium or the French authorities.
    So I am concerned--(A), Mr. Chairman, you brought up the 
point of Visa Waiver. I am concerned with the whole Schengen 
open travel, open border region and visa waiver and the ability 
of foreign fighters to flow to this country. I am also 
concerned about the open borders and the ability to of foreign 
fighters to get back to Europe, travel to Marseilles or to the 
south of France, and hop over from Portugal or Spain into North 
Africa and disappear, or maybe rejoin the fight with Boko Haram 
or al-Shabaab, or travel back to the Middle East and continue 
these evil acts.
    So in a post-Snowden environment, where I believe the 
reason Germany was slow to inform the French or the Belgians 
was because of intelligence sharing and what was being revealed 
at the time about the United States spying on Chancellor 
Merkel.
    So in the post-Snowden environment, let me ask you, are we 
communicating with our allies in the region, our global allies 
in this war on terror? How do you see that communication being 
hampered in the post-Snowden era? Either one. I would rather--
let's talk to Mr. Taylor first.
    Mr. Taylor. Sir, I think our communication is robust with 
our allies across the world on this particular issue. It is not 
perfect. Certainly, the challenges within the Schengen zone in 
terms of free travel once an individual gets into Schengen and 
is able to move is understood by the European Union. Hence the 
discussions about PNR and other sorts of data exchanged between 
the Schengen zone countries to better remedy that particular 
circumstance that you describe.
    It is not perfect yet, but I think they recognize the 
security deficit that is created--cross-border movement that is 
allowed within the Schengen zone at this point in time and are 
looking at ways in which they can remedy that. But I would tell 
you that the bilateral and multilateral engagement on this 
issue of foreign fighters and sharing of data is daily and 
consistent and robust.
    Mr. Duncan. Mr. Rasmussen, in 41 seconds.
    Mr. Rasmussen. You are right to point to an overlay or an 
overhang from the period of disclosures that included the 
Snowden disclosures. But I would argue that since that period, 
we have seen an increased sense of shared threat among our 
European partners precisely because of the attacks like the 
Brussels attack and certainly what we saw in Paris and in 
Belgium again recently. So that, I would argue, there is a bit 
of a pendulum swing to this process that is for the moment 
trending in a direction of more sharing and willingness to 
share information.
    But again, I would argue with intelligence channels, that 
is not an immediate thing that just happened in the last 2 
weeks since Paris. I think we have--that has been a pretty 
consistent refrain over the past couple of years. The politics 
of this issue are very difficult for some of our European 
partners, but as professional intelligence organizations 
working with each other, I would argue a lot goes on that we 
can be comfortable is useful to us.
    Mr. Duncan. Yes. I thank the gentleman. My time is expired. 
But communication is key in this realm, and I think you have 
acknowledged that.
    Mr. Chairman, I appreciate the lenience, and I yield back.
    Chairman McCaul. Thank the gentleman for his insight, as 
always.
    Gentleman from New York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Just on two aspects of this. One is the nature of terrorist 
attacks has changed profoundly. Al-Qaeda and al-Qaeda in the 
Arabian Peninsula has relied traditionally on complex plots 
involving explosions in airliners. Now, in September 2014, an 
ISIS leader told would-be recruits not to bother coming to Iraq 
or Syria but to launch attacks in their home countries. ISIS 
has called for attacks on soft targets in the West by any means 
available, including using a car to drive at pedestrians.
    The other issue is technology. As Mr. Steinbach had said, 
technology moves faster than legislation, a lot faster. You 
characterize the FBI as labeling this, you know, ``going 
dark.'' It is increasingly difficult to monitor the 
communications within terrorist networks. The proliferation of 
often encrypted, covert, coded information to prevent 
unauthorized use, from Skype to gaming forums to other new 
technology, has made surveillance tremendously technologically 
demanding, and in some cases, virtually impossible.
    Moreover, Apple's latest mobile operating system came with 
a default encryption, and Google's Android is soon to follow. 
In these systems, companies do not have access to their 
customers' passwords, and thus can't capture their messages.
    Now from a customer standpoint, from a consumer standpoint, 
you know, that is a very good thing. But those who are 
malicious--those--the malignancy of terror--it takes away a 
major tool that law enforcement uses to thwart terrorist 
activity in its planning stages.
    So, could you comment on that and what it is, if anything, 
we can be doing? You know, there was a time where publicly-
owned telephone companies were all too willing to cooperate 
with law enforcement agencies for wiretaps and those kinds of 
things. That is no longer the case, and this poses a major, 
major challenge to Western law enforcement officials.
    Mr. Steinbach. Sir, I agree with you, the threat--first of 
all, is diffused, it is evolving, and so I think sometimes we 
focus too much on the other end versus the threat. Whether it 
is a complex attack, a coordinated attack such as Paris, or a 
more simple use of a vehicle as we saw in Jerusalem.
    We need to focus on the threat and the commonality in many 
of these threat streams is the internet, is social media. I 
think it needs to start with an education. I think there is 
probably a little bit of a backlash from Snowden, but there is 
also the TV version of it, what they think is doable and how 
simple it is. In the reality of lawful intercept, there is a 
very structured process in place that is reviewed by judicial, 
either on the criminal side or in FISAC--in the court.
    So, I think there needs to be an education piece that we 
are not looking to snoop where we shouldn't be allowed to 
snoop, but we have to have the lawful ability to intercept. 
Whether you are talking about a on-going criminal matter, a 
dangerous criminal matter, or you are talking about a terrorist 
communicating over the--either overseas or within the United 
States.
    So, I think it needs to start with a public message for all 
of us to explain exactly what it is. Then we need to go back 
and provide legislative tools, much like there were with 
Kahlea, that apply to not just a small number of 
telecommunication providers, but apply to the majority of those 
providers who serve as communication platforms. I think that is 
an issue that needs to be resolved and head-on immediately.
    I know from the FBI's perspective, we are engaging with the 
International Association of Chiefs of Police, the major city 
sheriffs and the chiefs, the USIC and others to explain our 
position and to show them very much that we are not crying 
wolf. This is a problem and in a closed session we can show you 
the numbers of how we are going dark. But it is a grave 
concern, and your point is right on. Without that lawful tool, 
we risk an attack.
    Chairman McCaul. Thank you, and thank you for raising that 
important issue. I think it is going to provide a mode of 
communication for not only criminals, but potential terrorists 
to communicate without any ability of us to intercept that. So, 
with that the Chairman now recognizes the gentleman from 
Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Mr. Taylor, a man named, a jihadist as I would characterize 
him, named Abdul Sabah from Florida was allowed back into the 
country and wandered around here for about 6 months in between 
visits to Syria. Now, he eventually met his demise on his own 
hand as a suicide bomber in Syria, but as far as I know, we 
didn't even know. The United States didn't even know that he 
made two previous trips. So, this individual is obviously 
somebody that we would be interested in and poses a threat to 
our security.
    How did we--how did your agency--what did we miss? How did 
we miss it?
    Mr. Taylor. Sorry, you are correct that this individual who 
later committed a suicide attack in Syria did return to the 
United States from Syria without our knowledge, and I think 
without--was not under an FBI investigation. It was only after 
his suicide attack that we learned of his activity.
    I think that incident really reinforced our understanding 
of the need to have better intelligence on what was going on in 
Syria.
    Mr. Perry. I agree with you, I am just--how did we miss 
him? What has changed, what have you done in your agency to 
make sure that that doesn't happen again?
    How did we miss him? What has changed?
    Mr. Taylor. What has changed is our better understanding of 
how these people move, where they move, working with our 
foreign partners in terms of sharing intelligence, 
understanding the intelligence that is coming out and the 
communications patterns that are going on that perhaps weren't 
as robust.
    Mr. Perry. Are there any concrete steps that you can 
describe right now that you have changed based on missing him 
and to make sure it doesn't happen again?
    Mr. Taylor. I think I would share that with the FBI in 
terms of what the FBI has done in addition to what DHS has 
done. In terms of----
    Mr. Perry. What have you done?
    Mr. Taylor. Sir, we have extensively changed our 
methodology for tracking travel across the world, to the United 
States and out of the United States to these sorts of 
locations. In working with our intelligence partners across the 
world to better identify the linkages between potential 
Americans and others----
    Mr. Perry. With all due respect, in the interest of time, 
is that information Classified?
    Mr. Taylor. Yes, sir.
    Mr. Perry. Okay. Can we set up an off-site that I can get 
that information from you? I appreciate it. Thank you.
    Moving on, I am just curious to get an understanding of how 
you characterize this threat. By what name does your agencies 
refer to what I describe as a global jihadi movement? That is 
what I described it as. What--you are talking about foreign 
fighters, but the larger picture, I am just trying to get a 
mind's eye into your view of it from an agency perspective.
    How do you describe this threat?
    Mr. Taylor. We describe it as radical extremism.
    Mr. Perry. Okay. Mr. Rasmussen.
    Mr. Rasmussen. Global extremists.
    Mr. Perry. Okay. Mr. Steinbach.
    Mr. Steinbach. Sir, I don't care what you call it. It is a 
threat to U.S. citizens here and abroad, so it is people trying 
to conduct violent attacks, whether you call it global 
extremism, al-Qaeda, AQAP, it is a threat. I am not going to--I 
don't care about labeling. I worry about their intent.
    Mr. Perry. Well, I appreciate that, sir, and I agree with 
you, but you can't fix a problem if you refuse, or unwilling, 
or unable to label it, and I think it is more than just global 
extremism.
    There is a particular global extremism, and that is why I 
characterize it as jihadi. The fact that none of you want to 
say--you know, characterize it that concerns me because that is 
not identifying the problem.
    But, moving on, yet again in the interest of time. The UAE, 
Saudi Arabia and Egypt considered the Muslim Brotherhood as a 
terrorist organization. I am wondering, in the interest of 
pursuing foreign fighters, if--that comes into your 
consideration, radicalization and how it is perpetrated in this 
country.
    Do you look at those organizations, or that particular 
organization, or another one for that matter--CAIR, those folks 
wander around this country with impunity and--may or may not be 
involved in radicalization based on the fact that some nations 
have considered them a terrorist organization. Does that work 
into your calculation into determining radicalization? Do you 
have any knowledge of radicalization or participation by any of 
the--either of those two organizations?
    Mr. Steinbach. Sir----
    Mr. Perry. And Muslim Brotherhood.
    Mr. Steinbach. If you are asking me if I consider the 
Muslim Brotherhood a concern, I do.
    Mr. Perry. Okay.
    Mr. Steinbach. If you look at the founding of the Muslim 
Brotherhood, what it stood for, where it began, absolutely. 
There is, at the core, there are concerns about their ideology 
and their radicalization.
    Mr. Perry. All right, and so do you do investigations? Have 
any investigations led you to those organizations at all, 
regarding radicalization of America?
    Mr. Steinbach. Absolutely, There are historical 
investigations that at the root, the individual was radicalized 
by Muslim Brotherhood entities. We don't focus on the group. 
The individual has to have an intent, and that is where we 
focus the effort.
    Where is the radicalization come from is important for us, 
but it is not where I can hang my hat, and it is certainly not 
what I can build a case on.
    Mr. Perry. Appreciate it. Mr. Chairman, I yield.
    Chairman McCaul. Just to the gentleman's point, I--in 
deference to these individuals, in their reports they refer to 
it as Sunni extremism. I believe it is radical Islamist 
extremism that is the enemy. It is important to define that, it 
defies me why the administration won't call it that, but I will 
support these three witnesses, who, in their reporting, call--I 
think called threat what it is.
    Chairman now recognizes the gentleman from Massachusetts, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. General Taylor, thank 
you for your service.
    I want to go back to your very first remarks that you began 
this hearing with. You were talking about your concerns with 
the budget in homeland security. You know, there is a dangerous 
game of chicken that is going on right now, where in reaction 
to the President's immigration efforts, the reaction has been 
to threaten withholding of the very funding that protects our 
homeland security.
    Now, I don't think in the minds of the public they think 
there will be an absolute cutting of--out those funds, because 
that would be so radical a reaction. I don't think they think 
that is feasible. However, my point is, the reaction of going 
from these stop-gap budgets, continuing resolutions from month 
to month, backwards and forwards, that presents real limits on 
what you can do itself.
    So, I want you to focus on the fact that, forget about for 
a second the threat of just the cutting off of those funds. 
Right now the way you are functioning is a threat to your 
ability to deal with our security.
    Could you talk to that important point, I believe?
    Mr. Taylor. Certainly, sir. Secretary Johnson has spoken to 
that point, and as we have spoken during our testimony today 
that the threat that we face is evolving and changing. He needs 
the flexibility to adjust tactics and techniques as this threat 
evolves under the current issues. With the continuing 
resolution he does not have that flexibility.
    I would add one other thing. Before this committee, and 
before the authorizing committees, or the intelligence 
committees, as I came on board, one of the major issues 
discussed was the issue of morale. We have 220,000 employees in 
our Department who every day come to work to try to secure this 
country. It sends a terrible signal, in my view, to them and 
their responsibility when the Congress has not fully funded the 
effort that they are charged with accomplishing.
    So, not only from an ability to react to the changing 
nature of the threat, we have a challenge in our Department in 
ensuring our people understand that we support them and that 
they are going to get----
    Mr. Keating. I thank you for that. I just don't want it 
lost as we are talking about all these things today that we 
should be doing, that you are limited right now and able--you 
are limited in being able to address those things because of 
this stop-gap or continuing resolution approach that just keeps 
going on.
    Along those lines, one of the programs that I am interested 
in, particularly that Director Rasmussen talked about in 
general, was a program with Los Angeles, Minneapolis, and 
Boston. Some of the UASI money is going to fund that, and it is 
joint with homeland and with the Justice Department in general. 
It is the effort dealing with the National strategy on 
empowering local partners to prevent violent extremism.
    To me, that is a critical point going forward, too. I see 
it right in my own home State in Boston, in our ability to deal 
with that.
    Director, could you comment on that, and any other 
witnesses?
    Mr. Rasmussen. Sure, and the three cities that you 
mentioned, sir, are pilot cities in an effort to try to test 
and--and see if we can--what we are doing in an effort to 
counter violent extremism in our--in our communities here in 
the United States is, in fact, a workable solution, working 
with State and local partners, and is therefore something 
scalable and we can use it across a larger number of cities.
    The three pilot cities are going to be featured at the 
upcoming CVE summit that the White House is convening in just a 
couple weeks. There will be an obvious opportunity there to 
show other communities the benefits of participating in an 
effort to pull all of the different tools of a community 
together, not just the Federal tools as Director Steinbach 
said. This largely has to be a locally-led initiative, but 
enabled and with content help generated by the Government.
    Mr. Keating. Yes, this committee has done much work, 
particularly in light of the Boston Marathon bombing, in 
showing the multiplier effect of dealing with our local, and 
State, and county resources and assets in there. So, that is 
why it is important.
    Very quickly, one other point with the Passenger Name 
Record information. I mean, it spent 2013 in the European 
parliament that that has languished. It is great to hear a 
corporation with the United States and our allies is going 
great, but they are not talking to each other. Without that, we 
have a problem.
    Can you see any changes, or recommend any changes, should 
this stalemate continue with the Visa Waiver program?
    Mr. Taylor. Sir, you mean the stalemate within the----
    Mr. Keating. Within the European Union and parliament in 
dealing with this.
    Mr. Taylor. Of course our Visa Waiver program agreements 
are with individual countries.
    Mr. Keating. Right.
    Mr. Taylor. We are looking to strengthen within that 
bilateral relationship the exchange of information under the 
Visa Waiver program. So, we would love to see the European 
parliament come through and decide to do this across Europe, 
but that will not dissuade us from engaging bilaterally on the 
information exchanges that we think we need to----
    Mr. Keating. I agree with you, but I wanted to hear your 
comments in that regard, because there has been some discussion 
on changing that. But I think really we compromise our security 
in doing that.
    I yield back, Mr. Chairman.
    Chairman McCaul. Let me just add, the gentleman mentioned 
Boston. We have the Watertown police, as you know, in town to 
receive the Presidential Medal of Valor for Public Safety. I 
can't think of a organization more deserving than the Watertown 
police and the heroic efforts on that fateful day.
    With that, the Chairman now recognizes the gentleman from 
Florida, Mr. Clawson.
    Mr. Clawson. Thank you for coming, you all, today. I also 
pass along my best to the folks that work with y'all. They got 
a real tough job. Democracy is messy on Capitol Hill, and so 
the circumstances are difficult. So my full respect and 
appreciation for what y'all do.
    When I think about terrorists coming out of a dangerous 
part of the world like this and what is going on over there, I 
always think to Turkey. Honorable Mr. Rasmussen, you mentioned 
it, I think, earlier in your comments. On the one hand, Turkey 
has a proud history, a secular history. They got how many 
thousands of terrorists go to the Aegean Sea every year, 
manufacturing product going out of Ismir back to Europe, and a 
member of NATO.
    So you would think, on the one hand, these folks ought to 
be motivated to get things under control here with respect to 
the highway of tourists. On the other hand, I read about 
hostage exchanges with ISIL. There has been a long history, as 
you know, of problems with the Kurds. Also, it almost feels 
like there is ambivalence with respect to the violence on the 
border--I mean, on the border, with a war going on.
    It doesn't feel to me like we can solve this problem over 
there, and therefore, over here without pinning down where 
Turkey really is. I don't know where they are. If we can't get 
an ally who is a member of NATO to help us in the region, I am 
not sure what we could expect from anybody else.
    So I--you know, I am befuddled on where this is going and 
how we could ever have success without Turkey, and I am really 
interested in what you have to say about that.
    Mr. Rasmussen. Well, I think you are absolutely right, sir, 
that success in the counter-ISIL campaign or any effort we are 
engaged in to try to stem the flow of foreign fighters into and 
out of the conflict zone requires a functioning, effective 
partnership with the Turks across the whole range of issues--
intelligence, law enforcement, diplomacy, all of that.
    It is also true, though, that Turkey will always look at 
its interests through the prism of their own sense of self-
interest, and how they prioritize particular requests that we 
make for cooperation doesn't always align with our 
prioritization. That is just a simple fact.
    We have a complicated on-going discussion with the Turks, 
all of the Turkish government elements, about the specific ways 
in which Turkey can contribute to the coalition. I wish my 
State Department partners were here today to kind-of talk you 
through all of the different ways in which they are doing that, 
but it is a--truly a mixed story. There are areas where we 
receive profoundly effective cooperation from our Turkish 
partners and it is tremendously useful, and yet from our 
perspective, we think there is more to the relationship that we 
could get more that we need from the relationship to 
effectively address our concerns.
    Mr. Clawson. How do we take the next step, or is that 
purely a State Department issue at this point?
    Mr. Taylor. Sir, certainly, State Department has the lead, 
but our Department has been engaged with the Turks on very 
specific border security and other discussions to try to push 
forward more cooperation in that regard, and that is 
continuing. The Turks will be here for the CVE summit. Those 
engagements will continue. But as Director Rasmussen mentioned, 
it is a challenge at this point. But we see lights of 
cooperation beginning to flow in ways that we, I think, will 
want to explore going forward with them.
    Mr. Clawson. Well, we will push this in Foreign Affairs 
Committee, as well, because it seems that if we speak about a 
broad coalition to take on global terrorism and we don't have a 
fully committed Turkey on one bookend, and the other bookend is 
Syria, for God's sakes, you know, what are we really doing 
here?
    So I appreciate y'all's comments, and I think until you get 
full cooperation from the Turks, this is going to be a real 
uphill battle, in my view.
    I yield back.
    Chairman McCaul. I thank the gentleman on this important 
point. Our NATO ally Turkey could be a real help with the 
situation. I think we need to put pressure towards that end.
    Gentlelady from New York, Miss Rice, is recognized.
    Miss Rice. Thank you, Mr. Chairman.
    So I am not sure who can answer this, or all of you or one 
of you. Can you expand on the enhancements that are--have been 
made or are planning--or are going to be made on the ESTA 
system for the Visa Waiver countries to better secure, 
obviously, our Nation's homeland? To what extent--or where do 
you get the funding to ensure that whatever enhancements need 
to be made can be paid for?
    Mr. Taylor. Yes, ma'am. In October, we added six additional 
data elements that were required for all--and I don't have the 
specific ones, I can get them to you--that would broaden the 
data elements that have to been filled in in an ESTA 
application that comes to us before the travel is accomplished.
    That has allowed us to do more thorough screenings against 
our databases of those people who would come in from Visa 
Waiver countries. We are considering additional adjustments 
both bilaterally and across our entire program that are now 
being discussed in our Department to continue to strengthen the 
security of the Visa Waiver program and not to give us better 
confidence, more confidence here on the Hill and elsewhere that 
the security of that program is as effective as it can be.
    Miss Rice. In terms of oversight, how is that we ensure 
that every country that is part of the Visa Waiver program is 
actually keeping up with the standards that we need in order 
for us to get the information that we need?
    Mr. Taylor. Well, we do biannual reviews on the ground in 
those countries, of every Visa Waiver country. One of the 
things we are discussing is whether we should do that annually, 
as opposed to biannually. There are other things that we are 
discussing to strengthen our confidence that what we believe is 
happening in those countries is indeed happening. There will be 
more to come on that in the future as those deliberations 
continue.
    Miss Rice. Okay. Thank you.
    I yield back, Mr. Speaker. Thank you.
    Chairman McCaul. Thank you.
    Gentlemen, from Georgia, Mr. Loudermilk, is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    To the witnesses here today, I appreciate you being here. I 
don't know that when in my lifetime, I have been more concerned 
about the internal security of America, not just from our 
safety and security, but our economic security and on several 
fronts for different reasons.
    One of the things that I know that has been spoken about 
here and at other times is the threat of ISIS as not only being 
what I understand the most well-funded, the best organized 
terrorist organization possibly in the history, but also their 
ability to effectively use the internet and social media.
    There is one thing to use social media, but those of us 
engaged in politics, we spend a lot of time studying the 
effective use of social media. How do you come up and stand out 
amongst billions of users across the world? It appears that 
ISIS is doing a very good job. They are effectively marketing 
to our youth, which is specially concerning to me, especially 
those that are vulnerable, those are--feel disenfranchised and 
even using video games, as you have mentioned.
    So what are we doing--are we working with internet 
providers, social media providers to help combat the use of the 
internet and social media to spread their radical Islamic 
idealism that I think is a threat to the future? Are we working 
with those companies, and are they participating?
    Mr. Rasmussen. I will start, but I will certainly ask Mike 
to take this on, too, because the bureau is having quite a bit 
of direct engagement with these providers.
    Partnership with these technology companies on whose 
platforms this propaganda is riding is a central part of any 
strategy to counter what is going on. The President's CVE 
summit will have a private-sector component to it for precisely 
that reason, to make these companies partners with us.
    This partnership has a number of elements. It is in part 
exposing them to the information about what is happening on 
platforms that they control so they understand it. If they can 
understand when terms of service violations are taking place 
that they should intervene and take steps to block certain 
content.
    But it is also to--again, to deepen a partnership and make 
sure that they understand that we need to be partners with them 
in going at this more systemically, not simply in response to a 
single video or a single YouTube posting or something, but 
actually to think about what kind of relationship between the 
Federal Government, law enforcement, and these companies makes 
sense if we are going to tackle this phenomenon that is 
creating a serious homeland security vulnerability.
    Mr. Steinbach. So I will just add, sir, that, you know, 
social media, when you look at the volume and numbers of 
companies, it is hundreds of companies. So we do have direct 
engagement with those companies that are U.S.-based, but when 
you look at the totality of what the terrorist groups are 
using, many of these are small social media companies that 
reside offshore, who flaunt their lack of cooperation with law 
enforcement. So that is the problem.
    There is a--you can go to Twitter or many other companies, 
but there is just a large number out there that, unfortunately, 
it is difficult to get our arms around. So there needs to be 
thought towards, how do we affect the totality of the social 
media platforms that are out there?
    Mr. Loudermilk. Well, obviously, the dominant players in 
social media are American companies. Have they been receptive 
to work with you? Have you found them to be cooperative?
    Mr. Steinbach. So we have had on-going continual dialogue. 
I think we have a team there now on the West Coast talking to 
the companies. I would say they understand our viewpoint. I 
don't think those companies and the individuals who work in 
those companies want to see bad things happen. They balance the 
right to privacy versus their diligence and the requirement to 
keep people safe.
    But it is a volume thing. So it is not--they try to follow 
the terms of agreement, and certainly, if they see individuals 
violating those terms, those service agreement contracts, they 
shut them down. But when you are talking with that volume, it 
is a challenge for them. So I would say they understand our 
problem. We continue to work with them to get them to develop 
process technology to help us out. But that is just one part of 
it.
    Mr. Loudermilk. Okay. Thank you. I only have a few seconds 
left, but just wanted to say that when I was in the military, 
one of the things that we got to was the basic ideology behind 
an enemy. That is how you formed a strategy for a long-term 
defeat. My concern is that we are not properly identifying this 
as radical Islamic extremists to have a long-term fight, a 
strategy against the ideology. Typically, on the battlefield, 
most soldiers have a survival instinct that we know that when 
it comes down to it, they do want to live. In this case, this 
ideology is that death is a reward.
    So I would just emphasize the importance, as Ronald Reagan 
understood, understanding the ideology of extremism. If we are 
going to--if we don't, we will find ourselves responding 
instead of having a long-term strategy.
    With that, Mr. Chairman, I yield back.
    Mr. Steinbach. Really quickly, sir? Can I make a comment to 
that really quickly?
    Chairman McCaul. Please.
    Mr. Steinbach. So I think it is important to note that the 
subject-matter experts, whether you are talking about organized 
crime or terrorism, they are subject-matter experts. They--we 
spend a lot of time training towards, we hire towards subject-
matter experts to understand. You have to be a subject-matter 
expert to engage in this fight. We have robust training 
programs that talk about the ideology, that talk about the 
background and the culture, the history of the radicalization 
and history of terrorism. So those programs, those training 
programs are in place, and they are very important for my 
folks, and I am sure the other agencies, to work the threat.
    Chairman McCaul. I thank the gentleman.
    The Chairman now recognizes the gentlemen from New Jersey, 
Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and to the Ranking 
Member.
    You know, a lot of this discussion today and over the past 
month or so has been very interesting to me. Here we are, a 
committee with the responsibility of making sure that the 
homeland remains safe. But yet and still--everyone talks about 
making sure that that happens, but there are a group in the 
Congress that are willing to play politics with this country's 
security.
    You know, politics is part of what we do, but to pick 
Homeland Security in order to make your point is dangerous. I 
travel from my district in New Jersey, the 10th Congressional 
district, which takes in Newark, New Jersey, a tier-one target. 
Prudential Insurance Company was targeted several years ago, 
about a decade ago, for an attack.
    If you go to Jersey City in my district, where I went on 
September 12 and saw the smoldering building from across the 
river--we cannot play games with the funding for this 
Department because of a policy that you don't agree with in the 
Executive branch. It makes no sense.
    With that--oh, and let me just say, Mr. Chairman, I had 
come down from my district on the train Monday night, and in 
the train station there were DHS police officers, and I went 
over and spoke to them and thanked them for their service and 
the things they are doing for this country. They asked me to 
send a message back to Congress, and it was please give us the 
resources and the funding we need to do this job. Do not cut 
our legs from under us.
    So, we can't continue saying we appreciate their service 
and work, but yet we will not give them the resources that they 
need to do the job. So, Under Secretary Taylor, you mentioned 
that not fully funding the Department of Homeland Security 
would have a crippling effect on domestic security.
    Could you please explain how if the Department of Homeland 
Security is not provided with the full-year funding, efforts to 
prevent foreign fighters and their travel would be affected, 
since that seems to be a great concern on the other side, how 
not funding the Department will impact that ability?
    Mr. Taylor. Sir, I think the point the Secretary has made 
and I have tried to make here today is that working under the 
CR limits our flexibility in investing in the threats as they 
evolve over time, and our grant funding, and our ability to 
respond--to add money to the Secret Service for additional 
protection, and those sorts of issues.
    So, I can't speak specifically to a specific foreign 
fighter aspect, but in the day and age that we work and live 
from a security perspective, the Secretary believes very 
strongly that in order to protect the homeland, we need the 
flexibility to invest in the new threats as they are evolving. 
Under the current system, he doesn't have that flexibility to 
direct his forces to execute in that manner.
    Mr. Payne. New funding for new programs?
    Mr. Taylor. New funding for programs, funding for 
continuing grants, funding----
    Mr. Payne. Two-point-six--two-point-six billion dollars in 
grant funding from what I am reading here.
    Mr. Taylor. Yes, sir.
    Mr. Payne. You know, it just baffles me how we can almost, 
like, talk out of both sides of our mouths and say that we want 
to make sure that the homeland is safe, but because of an issue 
you have with the Executive branch, we are going to play games 
and say, well, you know, maybe we won't fund the Department of 
Homeland Security.
    I yield back.
    Chairman McCaul. The gentleman from New York, Mr. Katko is 
recognized.
    Mr. Katko. Thank you, Mr. Chairman.
    Mr. Steinbach, earlier you testified that the FBI did not 
have a process in place to vet and conduct background checks 
for Syrian refugees. What tools or capabilities would the FBI 
need to be able to conduct these checks?
    Mr. Steinbach. Sir, I didn't say we didn't have a process 
in place, I said that there was a lack of databases. So, we 
learned our lessons with the Iraqi refugee population. We put 
in place a USIC-wide background and vetting process that we 
found to be effective.
    The difference is, in Iraq, we were there on the ground 
collecting, so we had databases to use. The concern is in 
Syria, the lack of our footprint on the ground in Syria, that 
the databases won't have the information we need. So, it is not 
that we have a lack of process, it is there is a lack of 
information.
    Mr. Katko. Is there ways that you could suggest we go about 
trying to get this information?
    Mr. Steinbach. I just don't think you can go and get it. 
You are talking about a country that is a failed state, that 
is--does not have any infrastructure so to speak, so you--all 
of the data sets, the police, the intel services that normally 
you would go and seek that information don't exist.
    Mr. Katko. That obviously raises a grave concern as to 
being able to do proper background checks of the individuals 
coming into the country.
    Mr. Steinbach. Yes.
    Mr. Katko. Okay. All right, now, Mr. Taylor, thank you for 
your testimony as well. As a Member of the--as the Chairman of 
the Subcommittee on Transportation Security I look forward to 
working with DHS and TSA on a regular basis moving forward to 
the mutual benefit of everyone.
    A couple quick questions from your written submission, and 
it just--these real points of clarification for me so I can 
better understand the foreign fighter issue.
    One of the things that you mention was that the Secretary 
Johnson has ordered--or is conducting an immediate short-term 
review to determine if additional security measures are 
necessary at both domestic and overseas last-point-of-
departures.
    What is the status of that review right now and when are we 
going to be able to get some information out on that?
    Mr. Taylor. The schedule to brief the Secretary is this 
week by TSA. The idea behind this--the thing Secretary Johnson 
has charged us all with is thinking outside of the box.
    Mr. Katko. I like that.
    Mr. Taylor. We apply security directives, we see the effect 
of those security directives every week when we have our 
counterterrorism meeting. His last question is: Are we thinking 
out of the box, and what else could we be doing to be more 
effective? That is what he has charged TSA to give him some 
ideas back that he will decide in terms of how those things 
might be better implemented to--across both domestically and 
internationally.
    Mr. Katko. Okay. So, that is a short-term, and--of course 
you will report to us at the appropriate time any suggestions--
--
    Mr. Taylor. Yes, sir.
    Mr. Katko [continuing]. That might be helpful.
    Mr. Taylor. Absolutely.
    Mr. Katko. We appreciate that. You also noted that in the 
long term, you are exploring the possibility of expanding to 
pre-clearance operations.
    Could you explain this a little bit more in detail why that 
would be beneficial?
    Mr. Taylor. Well, simply put in a football analogy, we 
would rather play defense on their one-yard line than on our 
one-yard line, and right now, without pre-clearance, the 
clearance happens here in the United States and not at the 
overseas airport.
    So, the extent to which we have pre-clearance agreements 
with governments across the country, we can put Homeland 
Security personnel in those airports, conduct the screening 
using our databases at their 1-yard line, and be more 
effective, we think, in preventing people from getting on 
airplanes, coming to our country. Rather than finding them here 
and having to send them back.
    Mr. Katko. Okay. Thank you for that.
    Last, with respect to tracking the foreign fighters, there 
was a reference in your written report to enhancing or enabling 
of CBP to conduct security vetting of respective VWP travelers 
to determine if they have low--law enforcement security risk.
    When you say enabling CBP, what do you mean by that? Is it 
something mandatory?
    Mr. Taylor. We are really speaking to the expanding of ESTA 
and our ESTA data requirements, as one of the earlier Members 
asked, we have expanded that by six. We are looking at whether 
or not we should expand it even further so that we have better 
data upon which to vet against our databases.
    Mr. Katko. All right, so when you are--the term I was kind 
of hung up, maybe I am being my former prosecutor a little bit 
too much here, enabling the CBP to conduct security vetting.
    I mean, I use the seed word enabling. Does that mean it is 
optional for them to do that, or is it----
    Mr. Taylor. No, no, sir. It expands your capacity to do it 
with more data elements.
    Mr. Katko. It is part of the total mix of things they do 
when they screen someone?
    Mr. Taylor. Yes, sir.
    Mr. Katko. Okay. All right. Thank you.
    Mr. Taylor. I would add, sir, that every person that comes 
to the United States on an aircraft or ship is vetted against 
our holdings. There is no one that comes here that doesn't get 
that kind of screening. It is the--whether it is a visa 
screening or an ESTA screening, that may be a bit different in 
terms of whether an interview is conducted and that sort of 
thing, but everyone gets screened against the databases that 
are available to our country.
    Mr. Katko. Okay. Thank you very much.
    Chairman McCaul. Gentlelady from New Jersey, Mrs. Watson 
Coleman is recognized.
    Mrs. Watson Coleman. Thank you, Mr. Chairman and thank you 
Mr. Thompson. Gentlemen, I am sorry I wasn't here for the 
beginning of your testimony, but I spent my last night reading 
it, and I found it fascinating.
    So, I want you to know that I am very appreciative of what 
each of your agencies is doing and attempting to do and 
identifying in terms of keeping us safe here. How you have 
expanded your interactions, and your information sharing, and 
your methodologies, and your creativity with other--places, 
including foreign countries so that we can all be safe.
    That is very important to me. I am particularly struck by 
Homeland Security and I want to associate myself with Mr. 
Keating and Mr. Paine's remarks about our responsibility to 
ensure that as you are the protector of the homeland, that you 
have the resources necessary to be flexible, to be responsive, 
to be proactive, to do what you need to do to keep me safe 
without engaging in the political wranglings of whether or not 
we should be holding the President's foot to the fire on 
something that he did because Congress couldn't see fit to do.
    But nonetheless, my question is more narrowed, and I think 
it is similar to Mr. Loudermilk's questioning. I am concerned 
about growing our terrorists here, taking who we think are 
everyday young people, having them exposed to the way these 
radical organizations use the social media and any other 
recruitment resources, and how--what is it that we can do to 
sort of cut it off at the pass?
    What is it that we should be doing in terms of accessing 
young students, vulnerable college students? Are there 
resources that we should be putting in educating and 
counteracting some of this negative propaganda, this ideology-
spewing that is taking place with--how do we help our 
communities and our families see signs?
    Are there any commonalities of the characteristics of 
people that we have seen that seem to be most vulnerable that 
are home-grown, that seem most vulnerable to this 
radicalization? Can you share with me where you think our 
greatest threat is in terms of the security?
    Is it on the Southern Border of the United States and 
Mexico? Is it some other borders that we are talking about? For 
someone like me, I consider myself Spongebob. I want to soak up 
as much information as I can get. I need to have a better 
understanding of those questions, and whoever is able to answer 
any part of it, I would be greatly appreciative.
    Mr. Rasmussen. I will start, but any one of us can add 
pieces to this, ma'am.
    You are absolutely right that the focus of--one of the 
focuses of our effort at the Federal level is to try to empower 
local communities to develop their own engagement or 
intervention strategies, because that is what it takes. There 
is not going to be a Federally-led intervention in a particular 
family, or community, or social setting that is going to be the 
tipper that turns someone off from radicalization. It is that 
local community, the families, schools, churches, mosques, they 
are the ones who recognize behavioral changes at a point when 
behavior can be still addressed and potentially not end up at 
the worst-case scenario of a person actually having traveled 
overseas.
    So the precisely the kind of information you are asking for 
is what we are trying to share in a series of community 
awareness briefings that give people, parents, schools, 
teachers the tools to say hey, this is what is happening, and 
now I have to do something about it.
    Now the ``do something about it'' part is still very much 
has to be a community decision or a local decision. But the 
other frustrating piece, and it gets to the last part of your 
question, is that there isn't a single place you can say, ah, 
we need to be worried about it here but not here.
    Unlike some of our other previous foreign fighter flow 
episodes, like during the period when a large number of 
Americans were going to Somalia to participate in the fighting 
in east Africa, there you had a relatively defined set of 
communities where we had great concern because of the Somali-
American population and their particular vulnerability to 
recruitment there.
    Here, and I am sure Mike would echo this, we do not have a 
profile or a pattern that says, ah, in these communities yes, 
but in these communities we are okay. So what we are having to 
do is, we talked about it with Chairman earlier, is just scale 
up these efforts because the ISIL, the Iraq grounded propaganda 
is having a reach far beyond ethnicity. It is not Iraqi 
Americans or Syrian Americans, it is--it isn't--it can't be 
narrowed in that way, and that is a challenge and it is 
frustrating to us.
    Mr. Taylor. Ma'am, I would add, and certainly associate 
myself with all of the comments that Nick has been made, we 
believe one of the empowering organizations is our fusion 
centers and training of our State and local police officers who 
are the first responders, who are going to be the first level 
of defense, if you will, in spotting some of this behavior in 
addition to what happens within the community awareness area.
    So, it is a combination of empowering the community in 
terms of what to look for and having our police officers better 
understand this phenomenon and what they may see on the street 
on a day-to-day basis in their encounters with citizens. 
Community policing officers who are involved in day-to-day 
activities within communities across our country also need to 
have that kind of an understanding.
    I think, Assistant Director Steinbach mentioned it, it is 
almost like the D.A.R.E. program, where you go to get to the 
basics of everybody understanding what the issue is and filling 
the knowledge base so that people when they see it, that is 
where, ``See something, Say something'' can really make a 
difference in identifying these sorts of issues before they 
become bigger problems.
    Chairman McCaul. Thank you, gentlelady.
    Mrs. Watson Coleman. Thank you, Chairman.
    Chairman McCaul. The gentleman from Georgia, Mr. Carter is 
recognized.
    Mr. Carter. Thank you, Mr. Chairman, thank you, gentlemen 
for being here and thank you for what you do to protect our 
homeland. We appreciate it very much.
    Let me ask you--you know, this is the kind of report that 
you read through and you are concerned about everything, and 
not one thing more so than the other. But one of the things 
that struck me was about the foreign fighter travel. I just 
want to know what we can do to better control that. From what I 
understand, we are not using all of our resources. I don't know 
that the administration has even identified a lead agency to 
combat this. Is that true?
    Mr. Steinbach. No, I would say that is not true. So foreign 
fighter travel, travel to a conflict zone in support of foreign 
terrorist organization, is against the law. So the FBI has the 
lead on that.
    The question is: When you look at the broken travel, as Mr. 
Hurd brought up earlier, when you look at the ways to--
legitimate citizens traveling abroad is not something that we 
choose to curtail. So if you take travel to destinations like 
Europe, where you can then take--Schengen--down to Turkey.
    So it is more about identifying the multitude of ways that 
these individuals in the United States are committed to travel 
using good investigative processes. Are they going up to 
Canada? Are they going down to Mexico? How are they getting 
to--how are they using lawful process, lawful ways to get to 
these locations?
    So it is not a function of not having the tools. It is--you 
know, they are--they have just as much creativity as we do and 
they have got a lot of support. So they reach out on social 
media, on platforms, talk to people who have done it and made 
it, and then follow the travel routes.
    So we have got to stay on top of that and use tripwires, 
the intelligence community, the 17,000 State and local and 
travel law enforcement agencies to develop an understanding of 
what the landscape is.
    Mr. Carter. So the message I am getting from you here today 
is that you feel like we have got that under control, or doing 
the best we can?
    Mr. Steinbach. We don't have it under control. Absolutely, 
we are doing the best we can. If I were to say that we had it 
under control, then I would say I know of every single 
individual traveling. I don't. I don't know every person there 
and I don't know everyone coming back. So it is not even close 
to being under control.
    It continues to be a challenge. We have to creatively, as 
Frank said, think outside the box to figure out how to combat 
this. We spend a lot of time figuring this out, looking this 
over, trying to develop processes and databases, automated 
searches to work this problem.
    Mr. Carter. Okay. Let me switch here to a quick--and let's 
talk about the Visa Waiver program. As I understand it, there 
are certain people who are eligible for this and it is good for 
90 days and it expires in 90 days?
    Mr. Taylor. Actually, sir, the period of the ESTA approval 
can be upwards of 3 years, depending on the country. So once an 
ESTA is submitted, then the period that that ESTA is valid can 
be between 1 and 3 years.
    Mr. Carter. But those countries that we are most concerned 
with, it is up to 90 days, generally?
    Mr. Taylor. In terms of?
    Mr. Carter. In terms of the waiver.
    Mr. Taylor. Right now, we have a Visa Waiver with 28 
countries across the country--across the world. In each of 
those cases, we have a bilateral relationship with those 
countries about how we exchange data and for what purposes. 
More broadly, other countries have to get visas through the 
State Department for the purposes of traveling to----
    Mr. Carter. Okay, well, let me ask you this: What happens 
when it expires? Do we have someone who checks up on these 
people to make sure that they are not still here?
    Mr. Taylor. Oh, absolutely. That is the job of our 
Immigration and Customs Enforcement. Part of being in the Visa 
Waiver program is the requirement that your visa overstays be 
somewhere in the less than 1 percent level. So we are pretty 
confident in the countries that we have Visa Waiver programs 
with that the level of this type of activity by their citizens 
in our country is minimal, compared to the level of activity 
that may be evident in other countries, where visa overstays 
are a bigger issue.
    Mr. Carter. Okay. Well, as I can imagine it, you have got a 
tickler file set up, and if somebody exceeds that 90 days and 
they haven't left----
    Mr. Taylor. Absolutely.
    Mr. Carter [continuing]. Then you go looking for them?
    Mr. Taylor. We have processes to try to make sure that 
those people who are in this country for longer then their visa 
period are tracked down and escorted away.
    Mr. Carter. Okay. Mr. Chairman, I yield the remaining time.
    Chairman McCaul. I thank the gentlemen.
    Chairman recognizes the gentlelady from Texas, Ms. Jackson 
Lee.
    Ms. Jackson Lee. Let me thank the Chairman--let me thank 
the Chairman and the Ranking Member for this very important 
hearing. Let me state to the witnesses I was delayed because we 
were holding a crime subcommittee in Judiciary, of which I am 
the Ranking Member.
    This is an extremely important hearing, and it is issued in 
the backdrop of several worthy comments. The President has now 
released his AUMF, which is a singular notice to the Congress 
of the importance of addressing the question of ISIS and the 
potential of the United States engaging in some form of 
military action to be able to secure this Nation.
    I indicated in remarks earlier today on the floor that the 
Department of Homeland Security provides a domestic armor, a 
National armor of security. That is the responsibility of that. 
For many of us on this committee, we have had the privilege of 
serving since the horrendous and heinous act of 9/11.
    Often, I make the comment, certainly not proudly, that I 
was on or at Ground Zero during the moments of the extended 
time of looking for remains. It will always be a potent and 
striking moment in my life, and I take seriously the 
responsibilities of this committee.
    For that reason, I believe it is crucial that we do not 
hold hostage this Department. We have actually 7 days to make 
amends on the funding of the Department of the Homeland 
Security, and I remind my colleagues that the issue of 
unaccompanied children or the President's Executive Actions do 
not pose the kind of heinous threat that we are talking about 
today.
    I frankly think this is an important discussion, and many 
front-line DHS employees will be, in essence, hindered from 
their work without the full funding of this committee.
    I ask you Mr. Taylor, just a simple question, that in the 
midst of your jurisdiction and employees that you have under 
your jurisdiction, without funding for this Department, will 
some of them not be paid or some of them have to be furloughed, 
or some issue may come up regarding their service?
    Mr. Taylor. Ma'am, we are in the process of reviewing the 
procedures for an orderly shut-down of the Department. I can't 
say specifically the number of people, since I--people who work 
for me are primarily in the National security arena and are 
exempt from this. But there will be an impact in terms of 
people who are not directly involved in National security.
    Also, I would reinforce a comment I made earlier. There are 
going to be people who are working but not paid.
    Ms. Jackson Lee. That is the point that I made. You didn't 
hear me say that.
    Mr. Taylor. This is a morale challenge in a Department that 
is morale-challenged going forward. So----
    Ms. Jackson Lee. But the main point is, is that you are in 
the process of having that as a responsibility, which is 
surveying your Department and determining what will happen 
without the funding.
    Mr. Taylor. Absolutely.
    Ms. Jackson Lee. That is taking your attention away from 
important security issues of securing the Nation, which I 
assume--that is a statement that I believe is accurate. Is that 
not accurate?
    Mr. Taylor. I am not personally involved, but our 
Departmental management folks are working----
    Ms. Jackson Lee. But that is staff persons dealing with 
those issues----
    Mr. Taylor. Absolutely.
    Ms. Jackson Lee [continuing]. That would not ordinarily be 
dealing with them at this time.
    Mr. Taylor. Absolutely.
    Ms. Jackson Lee. Let me offer and pursue my questioning to 
make this point. I do want to offer sympathy. We have come to 
our attention that three members of a Muslim family were 
murdered in Chapel Hill. These were students at the University 
of North Carolina Chapel Hill. We understand the culprit was 
arrested and charged with first-degree murder and had some 
issues dealing with religious questions. One of the individuals 
was, in fact, speaking against the murder of people, meaning 
one of the Muslim students was speaking against that.
    Let me go straight to the gentleman from the FBI and ask 
the question regarding cyber and the internet and soliciting 
and what counter, in terms of ideology, can be best used to 
fight this. We can fight with arms. We can fight with 
intelligence. But are there other ways of stopping or getting 
in the way of the solicitation of our young people?
    Mr. Steinbach. Absolutely, ma'am. I think there are a 
variety of ways, both methods we can talk about in open 
session, as well information we can talk about behind closed 
doors in a Classified setting.
    I think it starts to go back--we have to understand the 
path to radicalization and mobilization. It starts with 
intellectual curiosity at some point, and there are lots of 
community-based efforts that can be made to turn people away.
    Once an individual gets to the point where he or she has an 
intent to conduct an attack, then it turns into an enforcement 
or a disruption piece. All along that spectrum, all the way 
through disruption, there are efforts that can be made both 
from a counter-radicalization narrative, both from a disruptive 
and an intervention perspective--and it is a multi-pronged 
approach that involves the State Department and the counter-
messaging piece. It involves a community-based counter-
radicalization piece. Of course, it involves the use of 
tripwires and disruption to prevent acts of terrorism. So it is 
a wide-spread approach that we have to utilize all of those.
    Ms. Jackson Lee. Well let me just say that I hope that this 
committee, that we have overlapping jurisdiction, will ramp up 
the dollars that will intervene in that radical heinous 
ideology.
    I consider ISIS barbaric. Mr. Chairman and Ranking Member, 
I do want to offer my deepest sympathy to the family of Kayla 
Mueller, who was in the truest sense a great American, who 
wanted to do nothing more than to help people who were in need. 
To be targeted by the heinous violence of ISIS--this 
committee's hearing is important.
    The violence in this committee--excuse me, in this--not in 
this committee, in this Nation that warranted and brought about 
the death of three Muslim students or individuals in North 
Carolina--none of this should be tolerated. However we can 
disrupt and interrupt this, I think it requires all of our 
resources, working together in bipartisan, funding the DHS, to 
be able to make a difference.
    I, for one, would like to be engaged in the writing of the 
legislation and/or to find out more in an instructive manner, 
how do we stop the radicalization of our young people for 
something as heinous as what ISIS represents.
    My final word, Mr. Chairman, is to thank King Abdullah and 
Jordan for their committed work, along with our allies, on this 
effort. My sympathy to them for the losses that they have 
experienced throughout the Mideast and throughout Europe.
    With that, I yield back my time.
    Chairman McCaul. Gentlelady's time has experienced. The 
gentlelady from Arizona, Ms. McSally, is recognized.
    Ms. McSally. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony here and--try and look at you 
while I am talking here with my colleague in the way.
    So I appreciate your work that you have been doing. I was 
26 years in the military and worked especially, Director 
Rasmussen, with your organization, and my last assignment at 
U.S. Africa Command running current operations there to include 
our counterterrorism operations.
    I am aware you all have been dealing with the foreign 
fighter issue long before a lot of people are now paying 
attention to it. But we were watching it even back then, 2007 
to 2010, where we had foreign fighters flowing from many places 
but into areas for al-Shabaab training camps and AQAP and AQIM, 
North Africa, any of these ungoverned spaces, as you know.
    I will say as someone in the military, it caused great 
frustration as much as what we have been talking about today is 
mostly on the defense, to your terminology. But in order to 
address this, it needs to be a comprehensive whole-of-
Government approach, for sure. But I sure would prefer to be on 
the offense primarily, and that includes going after these 
people that have, you know, decided to become enemy combatants 
in a generational struggle against us, as well as going after 
the core ideology.
    So at the Unclassified level--I mean, you know this. We 
watched thousands of foreign fighters graduate from these 
training camps because, quite frankly, we didn't have the 
political will to do anything about it on the offense at the 
time, not thinking it was within our interest or it wasn't a 
threat to our country. God knows where those thousands of 
jihadists who graduated from these training camps all over 
Africa--where they are now. I mean, who knows where they are 
today?
    But we just watched them. We let them go. We did nothing 
about it. Where we had tremendous opportunity to do some 
things, we just didn't do it. So we have been focusing on the 
foreign fighter problem with ISIS, but I do want you to comment 
on your perspective of the foreign fighter problem in other 
ungoverned areas that we can't forget about, to include many of 
them in Africa. I would just like your perspectives on what we 
are seeing through there.
    Mr. Rasmussen. Thank you. As I talked about in my 
testimony, the thing that is an order of magnitude different 
about the foreign fighter phenomenon in this current conflict 
is the scale. But you are absolutely right. This is not a 
phenomenon that was invented yesterday. Individuals interested 
in flowing to conflict zones to participate in conflict there 
is something we have been watching through a series of 
conflicts in the Middle East and North Africa.
    The kind of unifying theme in these areas is lack of 
governance, and so we are left, in a sense, sitting on the 
outside, trying to intervene using all of the tools available, 
but no one tool itself being adequate to the task of reaching 
into North Africa, whether that is a Mali or a Libya or a 
Somalia, and reaching in and being able to affect the dynamic 
that those foreign fighters are moving into, is a challenge 
that we do not have our arms completely around yet.
    We are particularly challenged in some of these areas 
because of an intelligence deficit, where our ability to 
collect intelligence that gives us a really, really good 
picture of who the individuals of greatest concern are. As you 
know, that is where we try to spend most of our effort, is 
trying to determine who those individuals are that actually are 
engaged in plotting against our interests because there is 
obviously a huge population of individuals who are there to 
participate in localized,conflict so we can't devote all of our 
resources to understanding that picture.
    I guess the last thing I would say is that particularly 
concerning about the ISIL phenomenon is that ISIL has now 
decided it needs to move beyond Syria and Iraq. So you have 
extremist organizations in North Africa, Algeria, in Egypt, in 
Libya, who now have raised the flag of ISIL and claimed 
affiliate status.
    Again, that creates a sense of momentum and competition 
among extremist jihadist groups that ultimately adds to our 
threat concerns, doesn't subtract. Even though you like to see 
your enemies fighting amongst each other, but actually, it is 
creating competition against each--amongst each other as they 
try to one-up each other in efforts to go after us.
    Ms. McSally. Great. Thank you. The next question--I have 
just a little bit of time here left--is--I know you talked 
about some community engagement, but you know, this is an 
Islamic extremist problem. So what in particular is the 
engagement with the Muslim community in America, the Muslim 
leaders? Where are you seeing that there are obstacles to 
having them admit that this is a problem of an extremist 
portion of their religion, and they need to get on board in 
order to stop it?
    Mr. Taylor. Ma'am, I would say that within the Muslim 
communities around our country, they are concerned, as are all 
Americans, about this kind of behavior among people within 
their community, and they want to address it. They want to 
understand it better and to have the tools to address it.
    I have noted--I have been out with the Secretary on a 
couple of these. There are concerns about discrimination on the 
part of those communities and how they are are treated in 
certain other ways, but there is no lack of commitment in those 
communities to get at extremism among their children, among 
people in those communities, because they see that as 
inconsistent with their responsibilities of being Americans and 
living the American dream in our country.
    So I have noted--I don't think we have noted a major lack 
of effort among those communities to recognize this phenomenon 
and how it impacts those communities and not wanting the tools 
to help them address them proactively.
    Ms. McSally. Great. Thanks.
    My time has expired. Thank you, Mr. Chairman.
    Chairman McCaul. Chairman recognizes the gentlelady from 
California, Mrs. Torres.
    Mrs. Torres. Thank you so much, Mr. Chairman. I apologize 
to the panel for giving you my back, but unfortunate 
circumstances of seating arrangements--I would like to go back 
to the question that was asked by Ranking Member Thompson for 
you, Under Secretary Taylor. Without a full year funding bill, 
the Department of Homeland Security cannot award, it was my 
understanding, $2.6 million, correct? Billion dollars.
    Mr. Taylor. Billion.
    Mrs. Torres. Billion in grant funding, much of which goes 
to State and local departments. Having served both at the local 
level as a council member/mayor, and having served as a State 
senator in the State of California, you know, these agencies 
are just beginning to recover from this great recession that we 
have had. They certainly do not have the funding to back-bill 
what we do not send to them, and they are dependent on this 
funding in order to help protect our communities.
    So what do you think is the risk assessment as it relates 
to these agencies not being able to pick up the phone and have 
someone on the other side answer to get feedback on a potential 
threat risk?
    Mr. Taylor. Ma'am, I can't speak to the specific risk. What 
I can speak to is the fact that grant funding and our 
investment in State and local community engagement efforts is a 
linchpin for how we have structured our country to do homeland 
security.
    We believe everyone needs to be in the game. Everyone needs 
to be empowered to understand what the risk is, what the 
tactics, techniques, and procedures are that they should be 
looking for and to share that information with the FBI, with 
the IC so that we can engage before the act happens. So the 
extent to which these grants make those agencies less effective 
in meeting that responsibility presents a risk for us.
    Mrs. Torres. Would you consider that a low-risk, a high-
risk, in the--as it relates to not just the agencies, but--I am 
sorry, not just as it relates to the local agencies, but the 
inability of the FBI or the inability of other departments to 
be able to coordinate and communicate with these agencies?
    Mr. Taylor. As I said, ma'am, we have built our homeland 
security enterprise based on a State, local, Federal model, and 
any capability that is taken away from that in some way 
diminishes our capacity to address the risks that we are 
concerned with in our country.
    Mrs. Torres. Thank you. I yield my time back.
    Chairman McCaul. The Chairman recognizes the gentleman from 
Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Gentlemen, I have very much enjoyed and appreciated your 
testimony today. As a former terrorism prosecutor and as a 
former United States attorney, I have had the good fortune to 
work with each of your agencies before on a number of 
occasions, and I very much look forward to the opportunity to 
do so again as a Member of this committee.
    Mr. Steinbach, I would like to start with you. Your boss, 
director of the FBI Jim Comey recently expressed concern about 
technology companies using encryption methods on mobile 
devices, specifically in response to an Apple representative's 
statement that it would no longer be possible to unlock 
encrypted iPhones and iPads. Director Comey drew an analogy to 
child kidnappers, and he said, ``The notion that someone would 
market a closet that could never been opened, even if it 
involves a case involving a child kidnapper and a court order, 
to me, that does not make any sense.''
    As a former terrorism prosecutor, I share Director Comey's 
concern and can certainly see how the inability to access 
encrypted devices would hamper terrorism investigations. So my 
question is: What is the FBI's plan to deal with this? Have you 
engaged the technology industry to address these concerns?
    Mr. Steinbach. First of all, sir, I am certainly not going 
to argue with Director Comey, so he is, of course, right. It is 
a concern. I think, quite frankly, it is irresponsible for 
companies to build products, have software updates that allow 
for no lawful capability to unlock their devices.
    So to make the argument that it is on the cloud and so you 
don't need to have access to the device itself is disingenuous 
because, as we know, not all of the information is on the 
cloud. We have to have the ability, whether we are talking 
about gangsters or organized crime or terrorists, with lawful 
abilities, court orders to look into and take content, store 
communications, whether it is a child pedophile, whether it is 
somebody involved in narcotics trade or somebody trying to 
conduct a terrorist act. We have to have that ability.
    So we have put this message out. I know that the director 
and his staff have gone out and relayed this message on 
numerous occasions. We have pushed it out. We have had 
interaction with the State, local, and Federal levels of law 
enforcement, as well as had direct contact with those companies 
and tried to explain to them through use of examples that this 
is a dangerous precedent to go down, to not have the ability at 
any means--whether it is an on-going kidnapping or some other 
event, not to have the ability to get in there and look at that 
content or that stored communication.
    Mr. Ratcliffe. Terrific. Thanks very much. I am going to 
throw this question out to anyone on the panel that wants to 
take it. There are numerous reports out there that Ask.fm is 
one of the common recruitment channels through which a number 
of American foreign fighters have formed close relations with 
ISIS recruiters. We talked today about the teenage girls from 
Denver. Since Ask.fm is operating out of Latvia, I would like 
to know whether there has been any interaction between the 
State Department and/or law enforcement with the Latvian 
government regarding this?
    Mr. Steinbach. So I can't speak to specific interaction 
between the State Department and the Latvian government. I will 
tell you that Ask.fm is but one of many social media companies 
that we have seen in our intelligence collection efforts USIC-
wide that is being used. It is just one. There are many other 
platforms that reside overseas that, again, like I said 
earlier, have shown an unwillingness to work with either our 
government or the host governments.
    Mr. Ratcliffe. Terrific. Last question. I apologize if this 
has been covered earlier. I have been in and out of other 
hearings today. But when ISIS-specific material is posted on 
Facebook, Twitter, Tumblr, YouTube, what are the existing lines 
of communication between law enforcement and those entities to 
either provide notice or to facilitate the removal of that 
material?
    Mr. Steinbach. So the companies themselves have terms of 
service agreements that in many cases, violence, criminal acts, 
violate those terms of service agreements, and as I understand, 
they have got automated processes, once they see that, to take 
those down.
    We are not looking at it from a terms of service agreement, 
of course. We are looking at it from the threat. So when we 
identify a communication, a radicalization node or some other 
piece that is being used, we look to, quite frankly, exploit 
that node and do that through lawful means, whether it is 
collecting the information to see what they are communicating 
about or to look at on-going communications.
    So we have an overlapping, I guess, mission when compared 
to some of these companies, but at the end of the day, the 
result should be the same. We want to stop the communication 
through various social media and internet platforms.
    Mr. Ratcliffe. Terrific. My time is expired. Again, I 
appreciate all of you being here.
    Mr. Chairman, I yield back.
    Chairman McCaul. We thank the witnesses for being here 
today. This is a very important topic to our National security. 
I want to thank all three of you for your service to the 
American people to keep Americans safe. I want to thank also 
the rank and file within the Department of Homeland Security, 
NCTC, and the FBI for the job that they do day in and day out 
without much recognition. But they are truly the patriots of 
this country. Just on behalf of this committee, we want to say 
thank you.
    The hearing record will be open for 10 days for additional 
questioning. Without objection, the committee stands adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
